<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 111-646]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-646
 
                          NOMINATIONS TO THE 
                      DEPARTMENT OF TRANSPORTATION 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 26, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-886 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 26, 2010.................................     1
Statement of Senator Lautenberg..................................     1
Statement of Senator Boxer.......................................     4
    Prepared statement...........................................     5
Statement of Senator Begich......................................    28

                               Witnesses

Hon. Orrin G. Hatch, U.S. Senator From Utah......................     1
    Prepared statement...........................................     2
David T. Matsuda, Administrator-Designate, Maritime 
  Administration, U.S. Department of Transportation..............     7
    Prepared statement...........................................     8
    Biographical information.....................................     9
Hon. Michael Peter Huerta, Deputy Administrator-Designate, 
  Federal Aviation Administration, U.S. Department of 
  Transportation.................................................    14
    Prepared statement...........................................    16
    Biographical information.....................................    17

                                Appendix

Response to written questions submitted to Hon. Michael Peter 
  Huerta by:
    Hon. Tom Udall...............................................    33
    Hon. Kay Bailey Hutchison....................................    34
    Hon. John Thune..............................................    34
    Hon. Sam Brownback...........................................    35
Response to written questions submitted to David T. Matsuda by:
    Hon. Kay Bailey Hutchison....................................    36
    Hon. John Thune..............................................    37
    Hon. David Vitter............................................    39
    Hon. Mark Begich.............................................    40


                          NOMINATIONS TO THE 
                      DEPARTMENT OF TRANSPORTATION

                              ----------                              


                       TUESDAY, JANUARY 26, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to the notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Excuse the tardiness. We have an 
important hearing to hold, and we want to get on with it. And 
so, we call the hearing to order and welcome our friend and 
colleague Senator Hatch.
    And, Senator Boxer, did you want to say anything?
    Senator Boxer. Well, I'm here to introduce Mr. Michael 
Huerta to be the Deputy Administrator of the FAA, so at that 
point I would do that.
    Senator Lautenberg. Thank you.
    Senator Hatch, welcome.

               STATEMENT OF HON. ORRIN G. HATCH, 
                     U.S. SENATOR FROM UTAH

    Senator Hatch. Well, thank you, Mr. Chairman and Senator 
Boxer. I'm honored to be here with both of you.
    I'm here today to introduce an honorary Utahn, Michael 
Huerta, President Obama's nominee for Deputy Administrator of 
the Federal Aviation Administration.
    I first met Michael about 10 years ago, when he joined the 
Salt Lake Olympic Committee, or Games Team, in Utah, to help 
pull together the monumental logistical and operational 
planning effort needed to sponsor what we considered to be the 
most important Winter Olympics and Winter Games in history. 
Michael brought his expertise in transportation, planning, 
operations, and logistical integration to bear--it was no small 
part due to his efforts that Utah's Olympic Games are known as 
the first Olympics to have a fully successful transportation 
operation.
    In fact, one of my favorite stories about Michael which 
exemplifies his commitment to public service took place in 
August 2001. Michael had completed his work on the core 
transportation plan for the Games, and had left the Olympic 
Organizing Committee in early 2001 to take a much better paying 
and high profile position in the private sector. We all hated 
to lose him, but understood the opportunity and wished him 
well. Then, in late summer, just 2 months before the start of 
the Games, our planning team realized that we had a potentially 
serious flaw in our operations plan, and there was no one in 
Utah with the necessary level of experience and understanding 
of the Games plan to pull together and run this operation at 
Games time.
    So, the Olympic team reached out to Michael, and made the 
audacious request that he leave his senior management position 
and rejoin the Olympic Games Team for just 7 months. After a 
little soul searching, Mike agreed, because at heart he is a 
public servant and he couldn't let an effort he had worked on 
fail when he knew he could serve it. His company, realizing 
they were losing an incredibly valuable asset in Mike, decided 
that, rather than let him go, they would loan him to the 
Olympic Games. And so, it ended well for everyone, particularly 
the 2002 Olympic Winter Games.
    At Games time, Mike led a very successful initiative called 
Travel Demand Management, which I understand is transportation-
speak for programs that shift traffic to alternative times in 
order to make room for the Games-related traffic. We in Utah 
are quite proud of the fact that our transportation systems 
were not a news story during the Olympics. It meant that 
everything worked, and everything worked well.
    The years Michael spent in Utah are just one example of his 
many years of experience in public service and in 
transportation. He has worked in just about every major mode of 
transportation and at every level of government, both in the 
United States and around the world. He ran a very successful 
transportation technology company, and now is ready once again 
to return to public service.
    This unique combination of capability, knowledge, 
experience, and genuine commitment to the public good and 
public service is exactly what we need at this time at the FAA. 
With the challenges facing that important agency, I've got to 
tell you that you've got a real good one here. I urge that you 
make a favorable consideration of this nomination as quickly as 
you can. He's a really, really fine man, with great abilities, 
who can serve at this time. And I want to commend the President 
of the United States for picking him. It was a great choice, 
and I'm really, really honored to be here to back up this 
choice.
    [The prepared statement of Senator Hatch follows:]

   Prepared Statement of Hon. Orrin G. Hatch, U.S. Senator from Utah
    Mr. Chairman, Madam Ranking Member and members of the Committee, 
I`m here today to introduce an honorary Utahn, Michael Huerta, 
President Obama's nominee for Deputy Administrator of the Federal 
Aviation Administration.
    I first met Michael about 10 years ago when he joined the Salt Lake 
Olympic Games team in Utah to help pull together the monumental 
logistical and operational planning effort needed to host the Winter 
Games. Michael brought his expertise in transportation planning, 
operations and logistical integration to bear and it is no small part 
due to his efforts that Utah's Olympic Games are known as the first 
Olympics to have a fully successful transportation operation.
    In fact, one of my favorite stories about Michael, which 
exemplifies his commitment to public service, took place in August of 
2001. Michael had completed his work on the core transportation plan 
for the Games and had left the Olympic Organizing Committee in early 
2001 to take a much better paying and high profile position in the 
private sector. We all hated to lose him but understood the opportunity 
and wished him well. Then, in late summer, just months before the start 
of the Games, our planning team realized that we had a potentially 
serious flaw in our operations plan, and there was no one in Utah with 
the necessary level of experience and understanding of the Games plan 
to pull together and run this operation at Games time.
    So, the Olympic team reached out to Michael and made the audacious 
request that he leave his senior management position and rejoin the 
Olympic Games team--for just seven months. After a little soul-
searching, Mike agreed--because at heart, he is a public servant and he 
couldn't let an effort he had worked on fail when he knew he could save 
it. His company, realizing they were losing an incredibly valuable 
asset in Mike, decided that rather than let him go, they would loan him 
to the Olympic Games, and so it ended well for everyone--particularly 
the 2002 Olympic Winter Games.
    At Games time, Mike led a very successful initiative called travel 
demand management, which I understand is transportation speak for 
programs that shift traffic to alternative times in order to make room 
the Games related traffic. We in Utah are quite proud of the fact that 
our transportation systems were not a news story during the Olympics. 
It meant that everything worked, and worked well.
    The years Michael spent in Utah are just one example of his many 
years of experience in public service and in transportation. He has 
worked in just about every major mode of transportation and at every 
level of government, both in US and around the world. He ran a very 
successful transportation technology company and now is ready, once 
again, to return to public service.
    This unique combination of capability, knowledge, experience and 
genuine commitment to the public good and public service is exactly 
what we need at the FAA right now. With the challenges facing that 
important agency, I urge your favorable consideration of his 
nomination.
    Thank you for your consideration.

    Senator Lautenberg. Thank you very much. It shows you what 
a guilty conscience can do to you. Because I was late and I saw 
our distinguished colleague here at the table, I introduced him 
to make, essentially, a very broad opening statement on behalf 
of Mr. Huerta. But, now--you're welcome to stay, Senator Hatch, 
but I know you have a busy schedule.
    Senator Hatch. Thank you, Mr. Chairman.
    Senator Lautenberg. I hope so, anyway. We're glad to see 
you.
    And now, I want to welcome everybody to the--to this 
hearing on the nomination of David Matsuda to head the Maritime 
Administration, commonly known as MARAD; and Michael Huerta, 
who we heard something about from Senator Hatch, to be Deputy 
FAA Administrator. Very important nominations in each case, and 
I think it's a good day for our country. But, for me 
personally, it's a proud day, as well.
    Eventually, many of the men and women who come to work with 
us in the Senate move on, but our hope is that they remain 
committed to public service. And today, it's a special 
privilege for me to introduce a former staff member who 
personifies that commitment. David Matsuda, my senior 
transportation advisor for 6 years, is President Obama's 
nominee to be Administrator of MARAD at the Department of 
Transportation. The President and Secretary LaHood have made 
excellent choices but, particularly because I am so familiar 
with David Matsuda, I am especially grateful that they chose 
David to fill this post.
    The Maritime Administration plays a critical role in port 
and vessel operations, maintaining the health of the Merchant 
Marine fleet, supporting current mariners, and educating future 
ones. We need someone at MARAD who understands the role of the 
maritime sector in our economy and our national security, and 
how all of our Nation's transportation modes fit together. And 
I know that David Matsuda is the person for the job.
    He has unparalleled expertise in transportation issues. If 
it moves, David wants to understand how it works. David and I 
have worked together on laws that fundamentally changed rail 
travel in this country, strengthened our Nation's oil pollution 
prevention and response programs, and improved security at our 
Nation's seaports.
    Time and time again, David Matsuda has proved himself 
resourceful and successful. And I look forward to working with 
him again to implement the new maritime laws recently signed 
into law.
    Now, my Maritime Administration Authorization Act will move 
more of America's freight off the roads and onto the sea by 
creating a new Marine Highway Grant Program. This law also 
establishes a grant program to improve the capability of our 
ports, and David will be a strong partner in implementing these 
new programs.
    I note that he's joined today by his wife, whom I also 
know, having been present at their wedding--Catherine Matsuda; 
his parents, retired Major Ron Matsuda and Mary Matsuda; his 
in-laws, Eugene and Barbara Parsons; and his brother, Michael, 
and his sister-in-law, Veronica. They're all proud of his 
accomplishments, and so are we. I'm confident that he'll be an 
exceptional leader for our Nation's maritime system.
    Today, as you heard from Senator Hatch, we're considering 
the nomination of an excellent candidate, Michael Huerta, to be 
the Deputy Administrator of the Federal aviation system. Mr. 
Huerta held senior positions in the Clinton Administration, at 
Department of Transportation, and is currently the President of 
MPH Consulting, which specializes in transportation issues, and 
he was a member of President Obama's transportation transition 
team. He's a graduate of the Woodrow Wilson School at Princeton 
University, in my State of New Jersey.
    At FAA, he'll be charged with helping keep our skies safe 
and convenient for all our air travelers--this too is a 
critical assignment, especially given the expected increase in 
air traffic in the coming years. I welcome and congratulate 
both of our nominees and their families.
    It's my pleasure to welcome our colleagues, who will all 
also introduce our nominees.
    Senator Boxer, if you'd like to talk about Michael Huerta, 
please do so.
    Senator Boxer. Thanks, Senator.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Senator Lautenberg.
    I would like to ask unanimous consent to place my entire 
statement in the record.
    Senator Lautenberg. Without objection.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Mr. Chairman, I am pleased to be here today to support the 
nomination of Mr. Michael Huerta to be Deputy Administrator of the 
Federal Aviation Administration (FAA). I would like to congratulate 
Michael and his family on his nomination.
    I am proud to see the Obama Administration choose a California 
native and a University of California at Riverside graduate to fill 
this important position at the FAA.
    Mr. Huerta has a long history of service in the transportation 
sector and he brings a wealth of experience to this position at the 
FAA.
    He has served in a variety of leadership roles ranging from the 
Executive Director at the Port of San Francisco, to coordinating 
transportation for the Salt Lake City Olympics to working in industry 
management.
    During Mr. Huerta's time as the Chief of Staff for the Secretary of 
Transportation (DOT) under the Clinton Administration, I worked with 
him on several transportation initiatives that were important to 
California, including the Alameda Corridor project in Southern 
California and the extension of BART to the San Francisco Airport.
    These projects brought jobs to California, and greatly increased 
California's ability to move goods and people in our state. I am 
confident he will bring that same leadership to key FAA programs.
    The FAA is facing many challenges. First, we must take action to 
improve aviation safety in the wake of the tragic crash of Flight 3407 
near Buffalo last February.
    The FAA delayed new rules to address pilot fatigue until early this 
year and FAA must act now to address this issue.
    The FAA must also work to implement Next Gen, which will modernize 
our air traffic control system and make our skies safer and more 
efficient.
    Mr. Huerta's experience managing large, complex organizations lends 
well to understanding the planning and technology deployment 
requirements needed to modernize our air traffic control system in the 
coming years.
    Finally, while I am pleased that the DOT has implemented a final 
rule based on the Boxer-Snowe airline passenger bill of rights 
legislation to protect passengers from lengthy tarmac delays, DOT and 
FAA must ensure that strong consumer protections are enforced and I am 
counting on Michael to do just that.
    Mr. Huerta's breadth of experience and leadership make him an 
excellent choice to fill the role of Deputy Administrator at the FAA. I 
look forward to working with him in his new capacity and congratulate 
him again on his nomination.
    Thank you, Mr. Chairman.

    Senator Boxer. And I will summarize, and also apologize in 
advance; when I'm done, I have a 3 o'clock urgent meeting in my 
office, way on the other side. So, I am not leaving because I'm 
not interested; I'm very interested. And as a matter of fact, I 
want to work with Senator Lautenberg to make sure that both of 
you move quickly and swiftly through the process, because 
you're both greatly needed.
    And I wanted to say how pleased I am to be here to 
specifically introduce Mr. Michael Huerta and to join my voice 
with that of Senator Hatch in supporting him.
    I also was going to ask his family if they would stand. I 
know his wife and 13-year-old son, Matthew, are here. Could 
they stand up and be recognized? Hi. And I heard, Matthew, 
you're very interested in aviation. Is that so?
    Matthew Huerta. Yes, it is.
    Senator Boxer. Oh, well, then dinner conversations are 
going to be very interesting around your house----
    [Laughter.]
    Senator Boxer--once your dad is in charge of so many 
issues. Thank you very much for being here.
    I am very proud to see the Obama Administration choose both 
of these fine people. And I have to say, Mr. Huerta, coming 
from California, as he does--a California native, a graduate of 
UC at Riverside--it means a lot to us in California to see a 
hometown guy make good. And we know you have a long history of 
service in the transportation sector. And we heard about your 
role at the Olympics--and I wanted to mention, you were 
Executive Director at the Port of San Francisco, which means a 
lot to a lot of us who were there at the time--and you were 
Chief of Staff for the Secretary of Transportation under the 
Clinton Administration. I remember, at that time, we worked 
together on very important initiatives for California, 
including the Alameda Corridor and the extension of train 
service to the airport. Those projects brought an amazing 
number of jobs to our State, and they greatly increased our 
ability to move goods and people in our State.
    Mr. Chairman, 40 percent of the goods headed for the United 
States of America come through the Port of Los Angeles. It's 
huge. We really need to pay attention to these--our States 
where we do so much work at the ports. And even though you're 
going to FAA, it's all about intermodal--it's all about how you 
connect all of this. So, I think your experience at our ports 
is going to be very helpful. Your experience in ground 
transportation at the Olympics is also very important. You're 
an organizer, and you understand making priorities. I just want 
to mention a few of mine, which I think speak for a lot of us 
here.
    We're concerned about pilot fatigue. We think this needs to 
be addressed, and in the wake of the tragic crash of Flight 
3407 near Buffalo, we have to work to implement NextGen, which 
will modernize our air traffic control system and make our 
skies safer and more efficient. And your experience managing 
large, complex organizations lends itself well to understanding 
the planning and technology deployment requirements needed to 
modernize our air traffic control system.
    Sometimes I really lose a little sleep worrying about 
what's going on, because we've heard from controllers, there 
are issues, there are problems. And then we hear from pilots, 
there are issues and there are problems. So, this is a very 
important job you're going to fill.
    Personally--a point of personal privilege for myself and 
Senator Snowe--we authored the Passenger Bill of Rights 
legislation. We're very pleased that the FAA has moved forward 
and essentially put one into place, but the consumer 
protections need to be enforced. They're not going to be worth 
anything if they're not enforced. I'm going to count on you, 
and I know Senator Snowe will, to do just that.
    Well, in conclusion, Mr. Chairman, Mr. Huerta's breadth of 
experience and leadership make him an excellent choice to fill 
the role of Deputy Administrator at the FAA. I look forward to 
working with you so we can make sure that these two fine public 
servants get to work as soon as they can.
    Thank you very much.
    Senator Lautenberg. Thank you very much, Senator Boxer.
    And now we'll hear from David Matsuda first, for 5 minutes, 
if you will give your testimony.

                 STATEMENT OF DAVID T. MATSUDA,

       ADMINISTRATOR-DESIGNATE, MARITIME ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Matsuda. Thank you.
    Good afternoon, Mr. Chairman. I'm greatly honored to be 
here today and to receive the President's nomination to serve 
as Administrator of the U.S. Department of Transportation's 
Maritime Administration.
    I'm pleased to be joined by my family, who you mentioned 
earlier. I'd ask them to take the opportunity to stand, right 
now. Some of them came from all over the country to be here 
with us, so if you don't mind.
    Senator Lautenberg. If you would like to all stand, members 
of the extended family----
    [Laughter.]
    Mr. Matsuda. Not the extended family, sir.
    Senator Lautenberg. Congratulations to all of you.
    Mr. Matsuda. Thank you.
    Well, I want to thank you, in particular, Mr. Chairman, for 
your trust and confidence in me as your chief transportation 
advisor for many years, and for the opportunity to be a part of 
your team serving the people of New Jersey. Through you, I've 
learned much about the government, about fighting for what you 
believe in, and about how to get things done in this town to 
help people.
    I'm proud to be back in this room today among colleagues 
and friends. I have had the opportunity to put in long hours 
with many of the staff in the room, and always the staff have 
represented members' interests here fiercely but with great 
civility. I think that's a hallmark of this committee and this 
body that deserves mention.
    Over the years, I've witnessed this committee play a 
tremendous role in maritime leadership and oversight, and, if 
confirmed, I will commit to maintaining its strong working 
relationship with the agency.
    Also, I pledge to you that I will work for President Obama 
and Secretary LaHood to carry out the mission of the Maritime 
Administration and execute the duties prescribed by our 
country's laws.
    With the Committee's permission, I'd like to take this 
opportunity to update you about what the Maritime 
Administration is doing to help the people of Haiti.
    Many of us heard the news, just 2 weeks ago, about the 
devastation left by the earthquake there. Since that time, the 
agency has mobilized the Merchant Marine to aid in what we knew 
would be essential relief-and-recovery efforts. We have 
activated five Ready Reserve Force cargo ships, as requested by 
the Defense Department, for Operation United Response. The four 
that will be used in Haiti have all been delivered, or are 
being delivered, ahead of schedule. We're also managing two 
additional fast passenger transport ships for the military. All 
are being crewed by U.S. civilian Merchant Mariners. And the 
agency is still receiving calls from skilled Mariners all over 
the country offering to help.
    Commercial U.S. flagships with American workers are already 
bringing large quantities of badly needed supplies, medicine, 
and food to Haiti, using makeshift ports. We've advised our 
fellow agencies on the many offers of support from the U.S. 
maritime industry that we have solicited, including offers from 
shipping companies, longshoremen, and offshore supply boat 
operators.
    In brief, the U.S. Merchant Marine is, again, quietly and 
successfully delivering, as they have so many times in the 
history of our country. ``Acta, non verba''--meaning, ``Deeds, 
not words,'' as we say at the U.S. Merchant Marine Academy, in 
Kings Point, New York--exemplifies this humble dedication.
    But the maritime industry's breadth goes beyond just being 
there when the country needs them in times of crisis or natural 
disaster. It enables us to trade globally every day. Items 
brought in by ship make their way to store shelves and factory 
lines throughout the country, not just in the coastal States. 
Some raw materials we mine, goods we produce, and crops we grow 
for export leave through our seaports or travel down inland 
rivers or across great lakes to distant markets.
    In all, 36 states have a maritime port, whether it's a 
river, lake, gulf, or ocean. In some states, a shipyard or 
marine manufacturing plant can be the largest source of jobs 
for an entire community or region. I've found the Maritime 
Administration's mission to be critical to ensuring our 
country's maritime infrastructure, vessels, shipbuilding 
capacity, and workforce are adequate to support our Nation's 
sealift needs, for our military as well as our economy.
    Today's maritime industry is struggling with many tough 
challenges: a lagging economy; environmental threats, like 
climate change, invasive species, and harmful air emissions; 
piracy and other security issues; a greatly expanded Panama 
Canal, opening in the year 2014; and an aging work force, to 
name a few. I believe my experience working within the Federal 
Government, and especially working in the Senate, has given me 
a broad understanding of how these challenges can be approached 
successfully by working with all stakeholders in good faith and 
by ensuring transparency in decisionmaking.
    Since coming back to the DOT, I've had the opportunity to 
again work with some highly capable Federal professionals who 
show great passion for their work, and, if confirmed, it'll be 
my privilege to work with these men and women, carry out the 
Maritime laws and policies of our country, make sure the 
Merchant Marine is there when we need it, and especially when 
we need it the most.
    Thank you, and I'm happy to answer any questions the 
Committee has.
    [The prepared statement and biographical information of Mr. 
Matsuda follows:]

   Prepared Statement of David T. Matsuda, Administrator-Designate, 
       Maritime Administration, U.S. Department of Transportation
    Mr. Chairman, Ranking Member Hutchison, and members of the 
Committee:
    I am greatly honored to be here today before the Committee, and to 
receive the President's nomination to serve as Administrator of the 
Maritime Administration.
    For many years I was fortunate to witness the Committee's work in 
transportation and maritime issues from well behind the dais as a 
staffer. So, it gives me great pride to be back in this room today 
among colleagues and friends. I've had the opportunity to work with 
many of your staff members, and they have represented your interests 
fiercely, but always did so with great civility.
    If confirmed, I pledge to you that I will work for President Obama 
and Secretary LaHood to carry out the mission of the Maritime 
Administration and execute the duties prescribed by the laws of our 
country. Over the years I have witnessed this Committee play a 
tremendous role in maritime leadership and oversight, and I will strive 
to ensure that its strong working relationship with the agency 
continues.
    The impacts of our Nation's maritime industry are not limited to 
coastal states--you don't have to have an ocean to depend on the 
maritime industry. Items brought in by ship make their way to store 
shelves and factory lines throughout the Nation. Some raw materials we 
mine, goods we produce, and agricultural products we grow for export 
leave through our seaports or travel down rivers or across great lakes 
to distant markets.
    In all, 36 states have a maritime port--whether it's on a river, 
lake, gulf, or ocean. Merchant mariners live in just about every state 
in the Union, and midshipmen nominated by you and your colleagues to 
study at the U.S. Merchant Marine Academy can claim home to all but one 
state. Some states have shipyards or marine manufacturers which can be 
the largest sources of jobs in an entire community or region. I feel 
that these basic elements of our maritime transportation system are 
influenced by the many Federal programs managed by the Maritime 
Administration.
    I believe the agency's mission is critical to ensuring these 
elements all exist and are adequate to support our Nation's sealift 
needs--for our military as well as our economy.
    Today's maritime industry is struggling with many tough challenges: 
a lagging economy, climate change, the threats of invasive species, 
piracy and other security issues, a greatly expanded Panama Canal 
opening in 2014, and an aging workforce, to name a few. I feel my 
experience working within the Federal Government, and especially 
working in the Senate, has allowed me a broad understanding of how 
these challenges can be approached successfully: by working with all 
stakeholders in good faith and with transparency in decisionmaking.
    Since coming back to the Department of Transportation, I've had the 
opportunity to again work with some highly capable Federal 
professionals, who show great passion for their work. If confirmed, it 
will be my privilege to work with these men and women to execute the 
relevant laws and policies of our country to help ensure that the 
merchant marine is there when we need it, and especially when we need 
it the most.
    Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): David T. 
Matsuda.
    2. Position to which nominated: Administrator, Maritime 
Administration, Department of Transportation.
    3. Date of Nomination: December 17, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1200 New Jersey Ave, SE W22-314, Washington, DC 20590.

    5. Date and Place of Birth: August 8, 1972, Soest, the Netherlands.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Catherine Parsons, Director of Development, Internet 
        Education Foundation, Washington, D.C.

    7. List all college and graduate degrees. Provide year and school 
attended.

        BS Engineering, 1994, Harvey Mudd College, Claremont, CA.

        JD, 1997, University of San Diego School of Law, San Diego, CA.

        Other schools attended (credit coursework only):

        New Mexico State University. Las Cruces, NM: June 1992 to 
        August 1992.

        Catholic University of America, Washington, D.C.: June 1996 to 
        August 1996.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1/1995-8/1995: Clerk, Cowley and Chidester (now defunct), 6050 
        El Tordo, Rancho Santa Fe, CA 92076.

        6/1996-8/1996: Law Clerk, USDOT, Office of the Secretary, 
        General Counsel, Office of General Law, 400 7th St, SW, 
        Washington, DC 20590.

        9/1996-12/1996: Law Clerk, City Attorney of San Diego, 1200 3rd 
        Ave 12th Fl, San Diego, CA 92101.

        1/1997-5/1997: Judicial Extern, Chambers of Hon. Napoleon A. 
        Jones, Jr., U.S. District Court, Southern District of 
        California, 940 Front Street, San Diego, CA 92101-8900, (619) 
        557-2993.

        1/1998-8/1998: Attorney, Law Offices of David T. Matsuda (now 
        defunct), 1648 State Street, San Diego, CA 92101.

        9/1998-3/2003: Trial Lawyer, Office of Chief Counsel, Federal 
        Railroad Administration, USDOT, 1200 New Jersey Ave, SE, 
        Washington, DC 20590.

        1/2002-1/2003: Fellow, U.S. Senate Committee on Commerce, 
        Science, and Transportation, 508 Dirksen Senate Office 
        Building, U.S. Senate, Washington, DC 20510.

        3/2003-3/2009: Senior Counsel, Office of Senator Frank R. 
        Lautenberg, 324 Hart Senate Office Building, U.S. Senate, 
        Washington, DC 20510 (Transportation counsel 3/2003 to 4/2007).

        3/2009-7/2009: Deputy Assistant Secretary/Acting Assistant 
        Secretary for Policy, Office of Policy, Office of the 
        Secretary, U.S. Department of Transportation, 1200 New Jersey 
        Ave., SE, Washington, DC 20590 7/2009 to present: Deputy 
        Administrator/Acting Administrator, Maritime Administration, 
        U.S. Department of Transportation, 1200 New Jersey Ave., SE, 
        Washington, DC 20590.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: N/A.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: N/A.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Federal Bar Association Section on Transportation and 
        Transportation Security Law. Have served on leadership board 
        since 2001.

        National Democratic Club: member since 10/2009.

        None of the organizations listed above restricts membership on 
        the basis of sex, race, color, religion, national origin, age, 
        or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Obama for America, Chicago, IL: Member, Transportation Policy 
        Committee, July 2008 to November 2008.

        Lautenberg for Senate (2008, NJ): Volunteer.

        John Kerry for President (2004, DC, PA): Member, Policy 
        Outreach Committee on Transportation, and GOTV volunteer in 
        Pittsburgh, PA.

        GOTV volunteer for: Bob Menendez for Senate (2006, NJ), Jon 
        Corzine for Governor (2005, NJ), and Alex Sanders for Senate 
        (2002, SC).

    5. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Mothers Against Drunk Driving (MADD) Congressional Staffer of 
        the Year (2005).

        Federal Railroad Administrator's Silver Achievement Award--
        recognized for individual and team work to develop and publish 
        Positive Train Control (PTC) regulation (2000).

        Scholarships awarded in conjunction with undergraduate and law 
        school education (obtainable upon further request) (1990-1997).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Speeches delivered:

        Global Maritime Information Sharing Symposium, Washington, D.C. 
        (Sept. 16, 2009).

        Quadrennial Convention of the Maritime Trades Department, AFL-
        CIO, Pittsburgh, PA (Sept. 11, 2009).

        The International Propeller Club of the United States 83rd 
        Annual Convention and Merchant Marine and Maritime Industry 
        Conference (Oct. 9, 2009).

        2009 World Maritime Day Parallel Event, New York, NY (Oct. 16, 
        2009).

        North Atlantic Ports Association Semi-Annual Meeting, 
        Washington, D.C. (Dec. 3, 2009).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        March 31, 2009, Testimony before Subcommittee on Technology and 
        Innovation, Committee on Science and Technology, U.S. House of 
        Representatives, in hearing titled ``The Role of Research in 
        Addressing Climate Change in Transportation Infrastructure''--
        found at: http://democrats.science.house.gov/Media/file/
        Commdocs/hearings/2009/Tech/31mar/Matsuda_Testimony.pdf.

    18.Given the current mission, major programs, and major operational 
objectives of the department/agency to which you have been nominated, 
what in your background or employment experience do you believe 
affirmatively qualifies you for appointment to the position for which 
you have been nominated, and why do you wish to serve in that position?
    I believe it is my overall experience and work on transportation 
and maritime issues, including those important to this Committee, that 
qualify me for this position. I have witnessed virtually every 
committee action (hearings, markups, floor action, conference) 
regarding transportation legislation and oversight action before the 
Senate Commerce Committee over the past 8 years. I also believe my 
combination of policy, legal, technical, political, communications, and 
leadership skills makes me uniquely qualified for this position, and I 
would like to serve the country as best I can.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe it would be my responsibility to ensure as best I can 
that proper management and financial controls at the Maritime 
Administration are in place and working as intended. I have served in 
an acting capacity as Administrator for the agency since July 2009. I 
believe that many improvements in efficiency and effectiveness have 
been made, and several more are in the process of being implemented. I 
have also served as Acting Assistant Secretary for Policy (and, for 
over a month, acting for the Undersecretary for Policy), USDOT, between 
3/2009 and 7/2009, leading the policy development office.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?

        (1) Development of national freight/goods movement policy--I 
        believe the lack of a clear national strategy can hamper the 
        U.S. economy and its ability to compete in a global 
        marketplace. This impedance will be demonstrated in greater 
        clarity as the widened Panama Canal opens in 2014, creating 
        potentially greatly altered freight flows in the continental 
        U.S. and affecting citizens, travelers, residents, and 
        businesses at all levels.

        (2) Improved Management/Accounting of the U.S. Merchant Marine 
        Academy--I believe the lack of resources and accountability, as 
        well as overall neglect, has led to potential legal violations, 
        deteriorated facilities, as well as other problems at the 
        Academy. These factors appear to have contributed to problems 
        with recruitment, retention and graduation of a vibrant corps 
        of future U.S. ship officers.

        (3) Revisiting Federal Policies Designed to Sustain U.S. Flag 
        Fleet/Military Sealift Capability--I believe Federal policies 
        should be constantly examined to ensure that the Federal 
        Government is taking adequate action to ensure a sufficient 
        U.S. maritime capability for national defense and other needs. 
        Economic pressures may have an adverse impact on U.S. flag 
        carriers, which the country relies on heavily for national 
        defense sealift capability.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: N/A.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: N/A.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    None apart from activities in conjunction with duties as part of 
working for a Senator and a Senate Committee.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No--other than successful 
appeal of a minor traffic offense.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    N/A.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       resume of david t. matsuda
    --Transportation Leader, Policy Expert

    --Broad Management, Work Experience in All Three Branches of 
Government

    --Legal, Technical, Legislative, Communications, Political Skills
Executive Branch, Legal/Managerial Experience

        United States Department of Transportation--Maritime 
        Administration, Washington, D.C.--Deputy Administrator/Acting 
        Administrator. Serve as Chief Executive Officer for $1 billion 
        agency with more than 700 employees and mandates to ensure an 
        adequate U.S. merchant marine, maintain the National Defense 
        Reserve Fleet of roughly 200 large cargo vessels. and operate 
        the U.S. Merchant Marine Academy (USMMA) to educate future 
        generations of U.S. maritime officers. Worked to develop 
        national freight movement policy, settle 3-year legal conflict 
        over environmental management of ship disposal program, and 
        instill new governance, oversight, and operational controls at 
        the USMMA. July 2009 to Present.

        Office of Policy, Office of the Secretary, Washington, D.C.--
        Deputy Assistant Secretary/Acting Assistant Secretary. Served 
        as Chief Policy Advisor, and for over a month, served as third-
        ranking official in 55,000-member Federal Department. Played 
        key roles in launching two new multi-billion dollar grant 
        programs: TIGER and High-Speed Rail. Advised Secretary of 
        Transportation and other top Obama Administration officials on 
        transportation policies, including high-speed rail development, 
        maritime matters, surface transportation reauthorization. March 
        2009 to July 2009.

        Federal Railroad Administration, Office of Chief Counsel, 
        Washington, DC. .--Trial Lawyer. Counseled agency team that 
        worked with labor and industry to develop safety standards for 
        Positive Train Control (PTC) systems and locomotive 
        crashworthiness. Served as lead counsel on landmark agency 
        proposed PTC regulation. Regularly negotiated multimillion 
        dollar settlements with major railroads and shippers concerning 
        civil penalties assessed for violations of Federal railroad 
        safety and hazardous materials regulations and laws. September 
        1998 to March 2003.

        Office of the Secretary, Office of General Counsel, Washington, 
        D.C.--Law Clerk. Assisted senior attorneys on cases involving 
        airline bankruptcy, commercial landlord-tenant dispute 
        involving USDOT headquarters, and patent law claims. Drafted 
        legal opinions for Secretary on Board of Correction for 
        Military Records (U.S. Coast Guard) cases. Summer 1996.

        Law Offices of David T. Matsuda, Esq., San Diego, CA--Solo 
        Practitioner. Operated a general civil litigation practice, 
        serving clients with interests in immigration law, family law, 
        insurance claims, employment law, personal injury, and probate 
        law. February 1998 to September 1998.
Policy and Legislative Experience
        Office of U.S. Senator Frank R. Lautenberg (D-NJ) Washington, 
        D.C.--Senior Counsel. Served as primary advisor on all 
        transportation and related security matters for active Senator 
        (major accomplishments listed below). Helped supervise and 
        manage staff of 25, and coordinate assignments and initiatives 
        amongst committee staff. communications staff, and constituent 
        caseworkers. Prepared and staffed Senator for all markups 
        conducted by four Committees (Appropriations; Budget; Commerce, 
        Science, and Transportation; and Environment and Public Works). 
        May 2007 to March 2009. (Served as Transportation Counsel March 
        2003 to April 2007).

        Obama for America, Chicago, IL--Member. Transportation Policy 
        Committee. Collaborated with other experts to develop policy 
        advisory memos on transportation issues for Barack Obama 
        Presidential campaign staff. Served on subcommittees for 
        passenger rail and transit, and contributed on documents 
        involving Amtrak/high-speed rail, Senator McCain's 
        transportation record and potential campaign events. July 2008 
        to November 2008.

        U.S. Senate Committee on Commerce, Science, and Transportation, 
        Democratic Staff, Washington, D.C.--Congressional Fellow. 
        Worked with committee professional staffer Deborah Hersman to 
        develop and carry out surface transportation policy/legislative 
        agenda for former Committee Chairman Fritz Hollings and former 
        Subcommittee Chairman John Breaux. Worked to enact bills on 
        pipeline safety and interstate limousine transportation, and 
        worked to pass Amtrak bill through Committee over strong 
        opposition of Ranking Member John McCain. January 2002 to 
        January 2003.
Additional Political/Campaign Experience
        Lautenberg for Senate (2008, NJ): volunteer

        John Kerry for President (2004, DC, PA): member, Policy 
        Outreach Committee on Transportation, and GOTV volunteer in 
        Pittsburgh, PA.

        GOTV volunteer for: Bob Menendez for Senate (2006, NJ), Jon 
        Corzine for Governor (2005. NJ), and Alex Sanders for Senate 
        (2002, SC).
Education
    University of San Diego School of Law, San Diego, CA
        Juris Doctor conferred May 1997. Served as judicial extern for 
        Federal District Court Judge Napoleon Jones, Southern District. 
        CA, spring 1997. Argued motions in Superior Court as law clerk 
        with City Attorney of San Diego, Police Legal Advisors Unit, 
        fall 1996. Admitted to California State Bar December 1997.

    Harvey Mudd College, Claremont, CA
        Bachelor of Science--Engineering conferred May 1994. Earned 
        Dean's List honors in three semesters at school ranked by U.S. 
        News and World Report as nation's top undergraduate engineering 
        institution.
Honors
        Federal Bar Association Section on Transportation and 
        Transportation Security Law. Serve on leadership board since 
        2001--Co-produced several successful live educational programs 
        on TEA-21 Reauthorization, Trucking Hours of Service laws, and 
        Aviation Carbon Emissions Regulation.

        Federal Railroad Administrator's Silver Achievement Award--
        recognized for individual and team work to develop and publish 
        Positive Train Control (PTC) regulation.

        Mothers Against Drunk Driving (MADD) Congressional Staffer of 
        the Year, 2005.

    Senator Lautenberg. Thanks very much.
    Mr. Huerta, you've had some laudatory comments, and we look 
forward to hearing from you. And I'd ask you to please keep it 
to 5 minutes, if you can.
    Thank you.

            STATEMENT OF HON. MICHAEL PETER HUERTA,

       DEPUTY ADMINISTRATOR-DESIGNATE, FEDERAL AVIATION 
       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Huerta. Thank you, Senator Lautenberg. Thank you very 
much for the opportunity to appear before you today. And I'd 
also like to thank my home State Senator, Senator Boxer, and my 
adopted home State Senator, Senator Hatch, for their kind words 
today.
    I'm honored that President Obama has nominated me for the 
position of Deputy Administrator of the Federal Aviation 
Administration. If confirmed, I look forward to the opportunity 
to work with Secretary LaHood, Administrator Babbitt, the 
Administration, and of course, you in Congress, to serve our 
country in this capacity.
    You also met the members of my family who are present 
today. First, my wife, Ann, who is my best friend and life 
partner. On more than one occasion, she has encouraged and 
supported my desire to follow my heart and my passion to try 
something new and challenging. She shares my belief that public 
service is truly a noble calling, and I would like to thank her 
for all that she has done, not only for me, but for countless 
others.
    You also met my son, Matthew, who has inherited his 
father's interest in transportation and aviation, and was once 
observed, at age 6, to be schooling a couple of off-duty pilots 
on the fine distinctions between various aircraft types.
    I'd also like to mention my parents, who would have loved 
to have been here today. My mother passed away in May of last 
year, and I lost my father 9 years earlier. I know they're 
watching from a better place, but I just wanted to tell them, 
``Thanks for everything.''
    The Federal Aviation Administration has a huge 
responsibility, and it faces significant challenges. As you 
well know, the FAA's mission is to provide the safest, most 
efficient aerospace system in the world. It carries out its 
responsibilities both as a regulator and as an operator. 
Crucial to the success of the FAA is its ability to work in 
partnership with its diverse stakeholders, including the 
private-sector air carriers and the general aviation community.
    The FAA also relies on sophisticated technology. Its 
systems must meet exceptionally high standards of safety, 
security, and reliability. And, of course, the agency is a 
large and complex organization. It has an ambitious agenda for 
transitioning to a next-generation air traffic control system 
while continuing to operate, on a daily basis, the largest air 
traffic system in the world.
    In my career I've been privileged to have had wonderful 
professional opportunities, both in the public and private 
sectors. I held senior policy positions at the USDOT under 
President Clinton, which gave me valuable insight into how 
Federal agencies work, and, in particular, the important role 
played by the FAA.
    More recently, I led a large transportation technology 
services company. I had responsibility for the operations of a 
large global organization, managing a diverse and technical 
work force, and ensuring that we met our financial targets. Our 
customers were, for the most part, State and local government 
agencies, and we provided critical systems that were central to 
them in being able to execute their missions. I came to develop 
a great appreciation for the benefits to be gained by 
partnerships between different interests in government and the 
private sector.
    The years I spent with the Salt Lake Olympic Committee 
taught me about how an immovable deadline can be an extremely 
powerful force in motivating and focusing a team toward a 
common objective. We had to be focused, but flexible and ready 
to adapt to the unexpected.
    My skills and experience will be helpful as I look at what 
is ahead at the FAA. I am excited about the prospect, if 
confirmed, of playing a major role in the FAA's deployment of 
NextGen. NextGen is, in fact, a system of systems, which must 
all work together in a coordinated fashion to improve the 
safety and efficiency of our Nation's aviation system. Its 
successful deployment has been identified both by Secretary 
LaHood and Administrator Babbitt as a critical objective for 
their tenure, and I'm committed to do everything I can to help 
ensure that objective is met.
    I'm also aware that the series of short-term extensions in 
FAA authorizations have created a degree of uncertainty within 
the aviation community at large. It is important that FAA 
reauthorization gets done. There are important safety programs 
that need to be reauthorized, and, if confirmed, I look forward 
to working with Congress and the aviation stakeholders 
throughout the legislative process.
    I hope that my background and experience will assist the 
FAA in meeting the challenges it faces in the coming years. I'm 
honored to have been nominated by President Obama, and I look 
forward to working in partnership with you in ensuring that our 
Nation's aviation system leads the world in safety, efficiency, 
and innovation.
    Thank you for the opportunity to be here today. I'm happy 
to respond to any questions that you might have.
    [The prepared statement and biographical information of Mr. 
Huerta follows:]

            Prepared Statement of Hon. Michael Peter Huerta,
   Deputy Administrator-Designate, Federal Aviation Administration, 
                   U.S. Department of Transportation
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, thank you for the opportunity to appear before you today. I 
am honored that President Obama has nominated me for the position of 
Deputy Administrator of the Federal Aviation Administration. If 
confirmed, I look forward to the opportunity to work with Secretary 
LaHood, Administrator Babbitt, the Administration and of course you in 
Congress to serve our country in this capacity.
    I would also like to introduce the members of my family who are 
present today: First, my wife Ann Sowder, who is my best friend and 
life partner. On more than one occasion she has encouraged and 
supported my desire to follow my heart and passion to try something new 
and challenging. She shares my belief that public service is truly a 
noble calling and I would like to thank her for all that she has done, 
not only for me but for countless others. I would also like to 
introduce our son Matthew. He has inherited his father's interest in 
transportation and aviation and was once observed--at age six--
schooling a couple of off-duty pilots on the fine distinctions between 
various aircraft types.
    The Federal Aviation Administration has a huge responsibility and 
faces significant challenges.
    As you well know, the FAA's mission is to provide the safest, most 
efficient aerospace system in the world. It carries out its 
responsibilities both as a regulator and as an operator.
    Crucial to the success of the FAA is its ability to work in 
partnership with its diverse stakeholders including the private sector 
air carriers and the general aviation community.
    The FAA also relies on sophisticated technology. Its systems must 
meet exceptionally high standards of safety, security and reliability.
    And, of course, the agency is a large and complex organization and 
it has an ambitious agenda for transitioning to a next generation air 
traffic control system, while continuing to operate on a daily basis 
the largest air traffic system in the world.
    In my career, I have been privileged to have had wonderful 
professional opportunities both in the public and private sector. I 
held senior policy positions at the U.S. DOT under President Clinton, 
which gave me valuable insight into how Federal agencies work and, in 
particular, the important role played by the FAA.
    More recently, I led a large transportation technology services 
company. I had responsibility for the operations of a large, global 
organization, managing a diverse and technical workforce and ensuring 
that we met our financial targets. Our customers were for the most part 
state and local government agencies and we provided critical systems 
that were central to them successfully executing their missions. I came 
to develop a great appreciation for the benefits to be gained by 
partnerships between different interests in government and the private 
sector.
    The years I spent with the Salt Lake Olympic Committee taught me 
about how an immovable deadline can be extremely powerful in motivating 
and focusing a team toward a common objective. We had to be focused but 
flexible, and ready to adapt to the unexpected.
    My skills and experience will be helpful as I look at what might be 
ahead at the FAA.
    I am excited about the prospect, if confirmed, of playing a major 
role in the FAA's deployment of NextGen, the new air traffic control 
system. NextGen is in fact a system of systems, which must all work 
together in a coordinated and fashion to improve the safety and 
efficiency of our Nation's aviation system. Its successful deployment 
has been identified both by Secretary LaHood and Administrator Babbitt 
as a critical objective for their tenure. I am committed to do 
everything I can to help ensure that objective is met.
    I am also aware the series of short-term extensions in FAA 
authorizations have created a degree of uncertainty within the FAA and 
the aviation community at large.
    It is important that FAA Reauthorization gets done. There are 
important safety programs that need to be reauthorized. If confirmed I 
look forward to working with Congress and aviation stakeholders 
throughout the legislative process.
    I hope that my background and experience will assist the FAA in 
meeting the challenges it faces in the coming years. I am honored to 
have been nominated by President Obama. I look forward to working in 
partnership with you in ensuring that our Nation's aviation system 
leads the world in safety, efficiency and innovation.
    Thank you for the opportunity to be here today. I am happy to 
respond to any questions that you might have.
                                 ______
                                 
                      a. biographical information
    1. Name (include and former names or nicknames used):

        Michael Peter Huerta

        Mike Huerta.

    2. Position to which nominated: Deputy Administrator, Federal 
Aviation Administration, United States Department of Transportation.
    3. Date of nomination: December 8, 2009.
    4. Address (List current place of residence and office addresses):

        Residence and Office: 5505 Utah Avenue, NW, Washington, DC 
        20015.

    5. Date and place of birth: November 18, 1956; Riverside, 
California.
    6. Provide the name, position and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Ann L. Sowder, Financial Planner, Sagemark Consulting 
        (A Division of Lincoln Financial Advisors), 8219 Leesburg Pike, 
        Suite 200, Vienna, VA 22182; child: Matthew Sowder Huerta, age 
        13.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Woodrow Wilson School of Public and International Affairs.

        Princeton University, MPA, International Relations, 1980.

        University of California at Riverside, BA, Political Science, 
        1978.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs and any non-managerial jobs that relate to the 
position for which you are nominated.

        April 2009 to present, President, MPH Consulting, LLC.

        April 2008 to March 2009, Executive Vice President and Group 
        President, Transportation Solutions, Affiliated Computer 
        Services, Inc.

        June 2005 to April 2008, Senior Vice President and Managing 
        Director, Transportation Solutions, Affiliated Computer 
        Systems, Inc.

        March 2002 to June 2005, Senior Vice President and Managing 
        Director, Transportation Systems and Services, Affiliated 
        Computer Services, Inc.

        April 2001 to March 2002, Vice President, Marketing and 
        Business Development, Lockheed Martin IMS, sold in August 2001 
        to Affiliated Computer Services, Inc.

        September 2001 to March 2002, Managing Director, Transportation 
        Communications, Salt Lake Organizing Committee for the Olympic 
        Winter Games of 2002 (Loaned Executive from Affiliated Computer 
        Services, Inc.).

        October 1999 to April 2001, Director, Federal Government 
        Relations, Salt Lake Organizing Committee for the Olympic 
        Winter Games of 2002.

        September 1998 to April 2001, Principal, Cambridge Systematics, 
        Inc.

        June 1998 to September 1998, Independent Consultant.

        January 1997 to June 1998, Chief of Staff, Office of the 
        Secretary, U.S. Department of Transportation.

        April 1993 to January 1997, Associate Deputy Secretary of 
        Transportation, Director, Office of lntermodalism, U.S. 
        Department of Transportation (Consultant until May 1993 when 
        confirmed by the Senate).

        January 1989 to April 1993, Executive Director, Port of San 
        Francisco.

        March 1986 to January 1989, Commissioner, New York City 
        Department of Ports, International Trade and Commerce (The 
        agency name was changed twice during my tenure and was also 
        known as New York City Department of Ports and Trade and New 
        York City Department of Ports and Terminals).

        July 1980 to March 1986, Consultant, Supervising Consultant, 
        Manager, Coopers and Lybrand Management Consulting Services.

        June 1979 to September 1979, Federal Summer Intern, U.S. 
        Mission to N.A.T.O., U.S. Department of Defense.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Chair, Oversight Committee, National Cooperative Freight 
        Research Program, Transportation Research Board.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        President, MPH consulting, LLC.

        Member, Advisory Board, Kapsch TrafficCom Holding Corporation.

        Consultant, Securing America's Future Energy.

        Chairman, Board of Directors, Intelligent Transportation 
        Society of America.

        Elder, Chevy Chase Presbyterian Church.

        Deacon, Chevy Chase Presbyterian Church.

        Chair, Oversight Committee, National Cooperative Fright 
        Research Program, Transportation Research Board.

        Consultant, Mark IV IVHS.

        Consultant, Chicago 2016.

        Member, Board of Advisors, College of Engineering, Center for 
        Environmental Research and Technology, University of 
        California, Riverside.

        Executive Vice President, Affiliated Computer Services, Inc.

    12. Please list each membership you have had during the past 10 
years or currently hold in any civic, social, charitable, educational, 
political, professional, fraternal, benevolent or religious 
organization, private club, or other membership organization. Please 
note whether any such club or organization restricts membership on the 
basis of sex, race, color, religion, national origin, age, or handicap.

        Member, The City Club of Washington.

        Member, Chevy Chase Presbyterian Church.

        Cubmaster, Cub Scout Pack 52 Member, Train Collectors 
        Association.

    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        January 1997 to June 1998, Chief of Staff, Office of the 
        Secretary, U.S. Department of Transportation.

        April 1993 to January 1997, Associate Deputy Secretary of 
        Transportation, Director, Office of Intermodalism, U.S. 
        Department of Transportation (Consultant until May 1993 when 
        confirmed by the Senate).

        I have no outstanding campaign debts.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    Contributions:
         Obama for America                                                 9/30/2008          $2,300
        Josh Zeitz for Congress                                           9/23/2008          $2,300
        Linda Stender for Congress                                        6/20/2008          $2,300
        Friends of Mark Warner                                             4/4/2008            $500
        Friends of Jim Oberstar                                           3/21/2008            $500
        Josh Zeitz for Congress                                          11/11/2007          $2,300
        Hillary Clinton for President                                    10/12/2007          $2,300
        Linda Stender for Congress                                        9/28/2007          $2,300
        Mitt Romney for President                                          4/2/2007          $2,300
        Linda Stender for Congress                                        6/29/2006            $500
        Menendez for Senate                                               4/10/2006            $500
        Menendez for Congress                                              4/7/2005            $500
        Democratic National Committee                                      4/5/2006          $2,500
        National Voter Coalition                                         10/10/2005          $1,000
        Democratic National Committee                                    10/25/2004          $2,000
        Ameripac: Fund for a Greater America                              6/25/2004          $1,000
        Mitt Romney for Governor (MA)                                     4/22/2004            $500
        Mitt Romney for Governor (MA)                                     11/2/2003            $500
        Lipinski for Congress Committee                                   5/13/2003            $500
        Mitt Romney for Governor (MA)                                    10/24/2002            $500
        Victory 2002                                                      9/21/2002          $1,000
        Steve Westly for Controller (CA)                                  6/21/2002          $1,000
        Torricelli for U.S. Senate                                         5/9/2002          $1,000
        Villaraigosa for LA Mayor                                         5/13/2001            $500
        Democratic National Committee                                     8/16/2000          $1,000
    I have not held any offices with, nor rendered services to, a state 
or national political party or election committee during the last 10 
years.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        16th ITS World Congress, Stockholm, Sweden, September 21, 2009.

        International Bridge, Tunnel and Turnpike Association, Board of 
        Directors, San Francisco, CA, April 16, 2009.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental on non-
governmental capacity and specify the date and subject matter of each 
testimony.

        September 9, 2002
        Testimony on Behalf of the Coalition for America's Gateways and 
        Trade Corridors before the Subcommittee on Surface 
        Transportation and Merchant Marine, Committee on Commerce, 
        Science and Transportation, U.S. Senate, and the Subcommittee 
        on Transportation, Infrastructure and Nuclear Safety, Committee 
        on Environment and Public Works, U.S. Senate, on Freight 
        Transportation and Intermodal Connections.

        March 13, 1997
        Testimony as Associate Deputy Secretary of Transportation 
        before the Subcommittee on Transportation and Infrastructure, 
        Committee on Environment and Public Works, U.S. Senate, on 
        reauthorization of the surface transportation program.

        February 24, 1997
        Testimony as Associate Deputy Secretary of Transportation 
        before the Subcommittee on Government Management, Information 
        and Technology, Committee on Government Reform and Oversight, 
        U.S. House of Representatives, on the Department of 
        Transportation's ``Year 2000'' activities.

        June 19, 1995
        Testimony as Associate Deputy Secretary of Transportation 
        before the Subcommittee on Government Management, Information 
        and Technology, Committee on Government Reform and Oversight, 
        U.S. House of Representatives, at a hearing in Chicago, IL on 
        streamlining Federal field office structures.

        May 17, 1993
        Testimony as nominee to be Associate Deputy Secretary of 
        Transportation before the Committee on Commerce, Science and 
        Transportation, U.S. Senate, at a hearing to consider 
        nominations.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The FAA's mission is to provide the safest, most efficient 
aerospace system in the world. It does that as a regulator and as an 
operator. It works in partnership with the private sector. It relies on 
sophisticated technology. The agency is a large and complex 
organization and it has an ambitious agenda for transitioning to a next 
generation air traffic control system, while continuing to operate on a 
daily basis the largest air traffic system in the world.
    In my career, I have worked both in government and the private 
sector. I held senior policy positions at the U.S. DOT, which gave me 
valuable insight into how Federal agencies work and, in particular, the 
important role played by the FAA. More recently, I led a large 
transportation technology services organization. In that capacity, I 
had responsibility for the operations of a large, global organization, 
managing a diverse and technical workforce and, of course, ensuring 
that the organization met its financial targets. Our customers were for 
the most part state and local government agencies and we provided 
critical systems that were central to them successfully executing their 
missions.
    I am excited about the prospect, if confirmed, of playing a major 
role in the FAA's deployment of NextGen, the new air traffic control 
system. NextGen is in fact a system of systems, which must all work 
together in a coordinated and fashion to improve the safety and 
efficiency of our Nation's aviation system. Its successful deployment 
has been identified both by the Secretary of Transportation and the FAA 
Administrator as a critical objective for their tenure.
    I hope that my background and experience will assist the FAA in 
carrying out its mission in the coming years.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As Deputy Administrator, I would have an important operational role 
at the department. Effective management of a large organization means 
that the leaders of that organization need to ensure that reporting 
systems are in place to provide them the visibility they need into what 
is going on in the organization. At the same time, they need to ensure 
that appropriate controls are in place.
    I recently served as an officer of a Fortune 500 corporation and 
have a good understanding of the dynamics of large organizations. It is 
important to be able to delegate and empower line managers but at the 
same time, to recognize that ultimate responsibility rests at the top. 
I have found that managing to specific and quantifiable targets is an 
effective means of building
    accountability, but also innovation. In addition, it is important 
to spend time ``walking around'' in the organization. You often gain 
important insights about what is going on in talking to line managers 
and employees informally.
    If confirmed, I look forward to working closely with the FAA's 
employees and stakeholders, and particularly Congress in meeting the 
agency's objectives in the coming years.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    If confirmed, I intend to build on my extensive experience to meet 
the Agency's current and future challenges. These challenges are not 
small. Our first and highest priority to ensure that the world's safest 
skies become even safer, and that we continue to be recognized as the 
world leader of aviation safety.
    Second, we need to move quickly and efficiently to implement our 
next generation of air traffic modernization programs to maximize our 
aviation system's efficiency. These next few years will be a critical 
time as the FAA and its partners in Congress, industry and labor take 
important steps toward a new future for our air traffic control 
systems.
    Third, we can move our aircraft more quickly, and we can move them 
more efficiently with less carbon impact and smaller footprints and 
less noise with our new technology. But we need to move aggressively 
with implementation jointly by all of our stakeholders.
    Finally, within the FAA, we need to regain internal labor 
stability, mutual trust, and build on the can-do spirit of the entire 
FAA work force, and we need to ensure the FAA's accountability and 
credibility in the delivery of its goals, its budgetary compliance, and 
its safety standards.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    While employed by Affiliated Computer Systems, Inc., (ACS) I 
participated in a deferred compensation plan and, at the time I 
enrolled, I elected to receive deferred compensation in five annual 
installments following my departure from ACS (March 2009). I will 
receive four remaining annual payments with the final payment expected 
in April 2013.
    While at ACS, I also participated in the company's 401k plan. Upon 
my departure I had the option to keep my account with the ACS plan and 
elected to do so.
    I currently am covered by health insurance through COBRA under the 
ACS executive benefit plan.
    Finally, I hold ACS stock options, which I intend to hold as market 
conditions warrant.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association, or other organization during your appointment? If so, 
please explain.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    From mid-1998 until April 2001, I was engaged by the Salt Lake 
Organizing Committee for the Olympic Winter Games of 2002 to assist in 
securing funding for transportation improvements in support of the 
Olympic Winter games held in Utah in February 2002. During the period, 
my company and I were registered as lobbyists.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for breach of ethics by, 
or been the subject of a complaint to any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were and officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation. If so, please explain.
    I am aware of several suits that were filed against my previous 
employers or that named me in an official capacity. None of these 
involved any allegation related to my own conduct.
    In my official capacity as Commissioner of the New York City 
Department of Ports and Trade, I was named in two suits against the 
city in the late 1980s involving nonpayment of rent at port facilities. 
In had no involvement in the litigation of these cases. The NYC 
Department of Ports and Trade may have been a party to other legal 
actions, but I had no involvement in any such cases.
    In 1994 or 1995, I was deposed in a sexual harassment case that an 
employee had brought against the City of San Francisco. I had been the 
Executive Director of the Port of San Francisco until April 2003, and I 
testified that I had met the employee only once and had no knowledge of 
the complaint. The Port of San Francisco may have been a party to other 
legal actions, but I had no involvement in any such cases.
    During the time when I was an officer of Affiliated Computer 
Services, Inc., a Fortune 500, publicly traded company with extensive 
domestic and international operations, the company may have been a 
party to administrative proceedings and litigation; however I had no 
involvement in any such cases.
    4. Have you ever been convicted (including please of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    N/A.
                   d. relationship with the committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of michael p. huerta
Professional Experience
    President, MPH Consulting, LLC, Washington, D.C.; April 2009 to 
present--Consultant on transportation policy, technology and financing. 
Clients include international technology companies and not-for-profit 
organizations.

    Executive Vice President and Group President, Transportation 
Solutions, Affiliated Computer Services, Inc., Washington, D.C.; April 
2008 to March 2009.

    Senior Vice President and Managing Director, Transportation 
Solutions, ACS Government Solutions, Washington, D.C.; March 2002 to 
April 2008.
    Chief executive of ACS' transportation technology services line of 
business. ACS is a premier provider of diversified business process 
outsourcing and information technology services and solutions to 
government and commercial clients worldwide. The company provides a 
wide variety of revenue collection, regulatory compliance and 
technology services to the transportation industry throughout the 
world. Products and services include:

  <bullet> System integration and customer service center operations 
        for electronic toll collection systems including E-ZPass in the 
        northeastern United States and FasTrak in California.

  <bullet> Fare collection and parking revenue control and management 
        systems to public transit authorities, airports, and cities.

  <bullet> The nationwide PrePass electronic commercial vehicle pre-
        clearance program.

  <bullet> A full suite of photo enforcement solutions designed to 
        promote road and highway safety.

  <bullet> System integration and design of PierPASS, a congestion fee 
        collection program used at the Ports of Los Angeles and Long 
        Beach, California.

    Vice President, Marketing and Business Development, Lockheed Martin 
IMS, Transportation Systems and Services, Washington, D.C.; April 2001 
to March 2002--Responsible for expanding IMS' leadership position in 
intelligent transportation marketplaces such as electronic toll 
collection, commercial vehicle operations, and electronic payment 
systems.

    Consultant, Director, and Managing Director, Salt Lake Organizing 
Committee for the Olympic Winter Games of 2002, Washington, D.C. and 
Salt Lake City, Utah; July 1998 to April 2002--Served in various 
positions as an independent consultant and an employee of the 
organization. Responsible for (a) designing and running, in cooperation 
with the Utah Department of Transportation, the highly successful 
Travel Demand Management (TDM) program used during the XIX Olympic 
Winter Games held in Utah during February 2002, and (b) securing 
funding for a $250 million program of temporary and permanent 
transportation projects to support the transportation requirements of 
the Games.

    Principal, Cambridge Systematics, Inc., Washington, D.C.; September 
1998 to April 2001--Principal of an employee-owned, nationally known, 
transportation consulting firm. Responsibilities included new business 
development for freight and intermodal transportation. Services 
provided included freight transportation planning, transportation 
planning for special events, project financing, and strategic planning.

    Chief of Staff, Office of the Secretary, United States Department 
of Transportation, Washington, D.C.; January 1997 to June 1998--
Responsibilities included serving as chief strategist and policy 
advisor to the Secretary of Transportation and day-to-day manager of 
the Office of the Secretary. Involved oversight of high-profile 
projects, major initiatives, and Federal Government financial 
assistance.

    Associate Deputy Secretary of Transportation and Director, Office 
of Intermodalism, United States Department of Transportation, 
Washington, D.C.; May 1993 to January 1997--Responsibilities included 
coordinating Federal policy on intermodal transportation and initiating 
policies to promote efficient intermodal transportation in the United 
States. Selected accomplishments:

  <bullet> $400 million Federal loan as part of financing package for 
        $1.9 billion Alameda Corridor port access project in Southern 
        California. The Federal loan was an innovative, direct loan 
        which completed the financing package and enabled this project 
        to move forward.

  <bullet> Airport access projects in San Francisco and New York which 
        involved blending airport, transit and highway revenues in new 
        ways to provide mass transit links to these airports.

    Executive Director, Port of San Francisco; January 1989 to April 
1993--Chief executive of the port, a self-supporting public agency that 
develops and administers maritime facilities, commercial development, 
and fishing facilities on San Francisco's waterfront. Completed a port 
strategic plan, which led to substantially increased container shipping 
volume. Initiated planning and construction for modernizing and 
expanding the port's shipping terminals and fish handling facilities. 
Completed an award-winning public access pier in downtown San 
Francisco.

    Commissioner, New York City Department of Ports, International 
Trade and Commerce; March 1986 to January 1989--Chief executive of the 
city department responsible for developing and administering marine, 
air, rail and truck facilities throughout the city; promoting 
international trade and investment; operating and regulating the city's 
public markets.

    Management Consultant, Coopers & Lybrand, Washington, D.C.; July 
1980 to March 1986--Consultant serving a variety of public and private 
sector clients in economic studies, feasibility analysis and 
international trade services.
Education
MPA 1980, Woodrow Wilson School of Public and International Affairs, 
Princeton University BA 1978, University of California, Riverside.
Professional Affiliations
Chairman of the Board of Directors, Intelligent Transportation Society 
of America.

    Senator Lautenberg. I thank each of you for your testimony.
    And I want to make note of the fact that the sparseness of 
attendance doesn't indicate any lack of interest. Interpret it 
to be confidence in the selection of each of you by the 
President, by the Secretary, for your competence and your 
experience. So, we feel very good about that, and I look 
forward to having the Committee move on this as quickly--on 
your nominations as quickly as we can.
    A few questions, first, that I'd like to discuss--first of 
all, for Mr. Matsuda, the completion of the Panama Canal in 
2014 will lead to bigger and more ships in East Coast ports, 
including the Port of Newark, which is the largest port on the 
East Coast. This kind of inquiry will not come as a surprise to 
you, I'm sure. As Administrator, what might you do to take a 
proactive role to prepare the Port of Newark and other East 
Coast ports for this large increase in freight volume?
    Mr. Matsuda. Thank you, sir. I believe that the Panama 
Canal reopening and expansion is probably going to be one of 
the biggest factors that changes freight flows in our country 
over the next decade. It's a significant change for, not just 
the East Coast ports, but also the Gulf ports, in the Gulf 
region of our country. We at the Maritime Administration have 
already begun to look at this issue. I've been up to the--well, 
the Port of New York/New Jersey many, many times--but even 
twice as Acting Administrator--to understand the challenges 
they face, and we have already commissioned a study to take a 
look at how the Panama Canal reopening might impact, like I 
said, our entire country, and we hope that that will prove 
valuable, in terms of ports and other policymakers determining 
how they might best prepare for this.
    Senator Lautenberg. For each of you, also, what we've seen 
over the recent years is the globalization of trade and 
commerce. And, whether it's by ship or by air, America must 
have its structure prepared to take advantage of the 
opportunities that are presented as a result of this 
globalization.
    So, last year, David, President Obama signed into law 
legislation that we wrote to establish a Marine Highways Grant 
Program. As Administrator, how might you implement this new 
program to meet the goal of moving more of our freight off the 
roads and onto the sea?
    Mr. Matsuda. Senator, I believe that was a key piece of 
legislation that will really help bring about a change in 
getting the--America's Marine Highway Program up and running. 
We want to create more services, and expand the existing ones, 
to make sure that shippers have a choice when they look to--
look for transportation services on domestic routes.
    We can take advantage of getting cargo moving in a more 
efficient manner on the water. A recent study showed that a ton 
of cargo can be moved 576 miles on one gallon of fuel on a tug-
and-barge system, and that certainly presents some major 
opportunities when it comes to energy savings, and we'd really 
like to take advantage of that. So, we are going to be looking 
very closely, I believe, at getting the program up and running, 
getting the funds out the door, and making grant awards as soon 
as we can.
    Senator Lautenberg. It will also help our environment.
    Mr. Matsuda. Absolutely.
    Senator Lautenberg. And, Mr. Huerta, regional airlines 
operate half of all domestic departures and move more than 160 
billion of our country's passengers each year. If we're to have 
one level of safety for both regional and major network 
carriers, shouldn't the pilots of the regional carriers be 
trained and compensated at the same level as pilots for major 
network carriers, and particularly if they're flying identical 
routes? Because each one of them has enormous responsibilities 
for safety, for reliability. And so, what do you see as a--as 
an opportunity, or a criticism, of the fact that often pilots 
of regional carriers are paid far less and often are required 
to have personal travel to get to their base of operations? But 
the fatigue factor has to be reckoned with when their 
compensation isn't adequate, and often second jobs are 
necessary to provide for their families. And so, what could we 
do, what should we be looking at, in terms of the development 
of adequately trained, adequately rested, and adequately alert 
pilots that might be captaining an airplane?
    Mr. Huerta. Clearly, the responsibility of being an airline 
pilot is one of the most significant responsibilities that an 
individual can have in the transportation system, and safety 
is, without question, the thing that the FAA cares the most 
about.
    It is--there have been a lot of discussions, and a lot of 
interest in, What can we do to take our already impressive 
level of safety and continue to improve it and make it better?
    I think that what it comes down to is--you touched on the 
one level of safety, and it is clear that there has to be one 
level of safety for all air carriers throughout the aviation 
system. And we need to look at ensuring that there is adequate 
training, that pilot capabilities are what they need to be to 
deal with the unexpected as well as the routine, and that we at 
the FAA are as vigilant as we can possibly be in ensuring that 
appropriate safety standards are met.
    The issues that you raise on regional carriers versus 
mainline carriers, I think, are significant issues, and I look 
forward to getting into the FAA and really understanding and 
focusing on what can we be doing to constantly improve our 
safety environment.
    The Administrator has pointed out, on a number of 
occasions, that there's no one silver bullet that you can look 
at, because you have to look at the specific training that an 
individual has for a specific situation, what their experience 
has been, and the characteristics of the route that's being 
flown. It's all important, and it all needs to be looked at, 
but, at the end of the day, you can't lose sight of the fact 
that we have to enforce one level of safety.
    Senator Lautenberg. Mr. Huerta, the airspace around Newark 
is one of the most complex and congested in the world. Newark 
Airport's the country's most delayed airport--cause delays that 
ripple throughout the country. What can we do to alleviate the 
congestion and delays that do occur at Newark Airport? I know 
that you're familiar with what the problems are. What can we do 
to solve them?
    Mr. Huerta. Well, you are correct that I'm familiar with 
the problems. I've spent a lot of time in delays at Newark 
Airport over the course of my career. And it is a large, 
complex airport, and it's in a large and complex metropolitan 
area of several other airports.
    This is a lot of what the FAA hopes to accomplish through 
the NextGen system. How do we bring more traffic through the 
system? How do we make the system operate more efficiently, 
effectively, and to better be able to respond to different 
conditions and such things as weather and traffic? And so, this 
is what the new system is all about. How do we improve the 
capacity of the system?
    And the onus is on the FAA to figure out, How can we 
accelerate and improve upon an already very ambitious schedule 
for deployment so that we can take advantage of the 
capabilities that the new system will get us, down the line?
    We've had some success in rolling out aspects of the 
program, and I understand that the FAA met nearly 100 percent 
of its milestones in the last year, in 2009, for the deployment 
of NextGen. And we've got to continue to focus on ensuring that 
milestones are met and that the system is deployed in a way 
that deals with complex metroplex areas such as you have in New 
York and New Jersey; and in particular, Newark Airport.
    Senator Lautenberg. As you might know, it's not simply, or 
not only, the allocation of space and making sure that 
schedules are realistic, but also, as your neighbor at the 
table learned during our working together in my Senate 
operation, that the noise level issues that people are finding 
as a result of the shifts in the airspace use will come, I hope 
not to haunt you, Mr. Huerta but to bring to your attention, I 
promise.
    [Laughter.]
    Mr. Matsuda, the United States Merchant Marine Academy is 
in an unacceptable condition. Its infrastructure is 
deteriorating. It's had difficulty maintaining effective 
leadership, and nearly $20 million in financial reporting 
violations were recently discovered. As Administrator, what 
might you do to improve the financial management, the planning, 
strategic planning, quality of mariner education, training, at 
the Academy?
    Mr. Matsuda. There's a--we are taking a very close look at 
the Academy at Kings Point. Recently, we are--we have opened an 
announcement to begin a search process for a new 
superintendent, and we feel that that holds great promise to 
instilling leadership there for the future.
    I think it's probably fair to point out that the 
Secretary--one of Secretary LaHood's top priorities has been to 
make Kings Point the crown jewel of the service academies. And 
I share that vision. I believe that, with leadership, proper 
financial accountability, and investment in, not only the 
facilities there, but these are investments in our next 
generation of ship officers in our country, and they'll 
continue to be the best in the world if we make those 
investments.
    So, what we're doing is, we have a system for taking a look 
at all 47 of the recommendations made by the Government 
Accountability Office, and we will have--make sure that there 
are financial controls in place to ensure that taxpayer dollars 
there are being well spent, and not for any reasons that they 
would find to be improper.
    Senator Lautenberg. There are all kinds of reasons to make 
the Merchant Marine Academy as fine an educational facility as 
we can have, because, as you point out in your testimony, the 
fact is that suddenly the merchant fleet is called upon to 
bring relief to Haiti, we find that the merchant fleet is 
called upon for other moments of crisis in addition to their 
normal functioning. And it's critical, in my view, that the 
United States, if I may say, the greatest power on the globe--
to have fleet representation out there that can manage to be 
effective when called upon in emergency.
    And I had my own experience learning something about the 
Merchant Marine when I was in uniform, a long time ago, and 
when we had 3,000 soldiers on about a 300-foot vessel, going 
through the seas to bring us back to America from Europe. I 
thought I was traveling in the utmost luxury, only because of 
the destination, not because of the quality of the 
accommodations.
    [Laughter.]
    Senator Lautenberg. But, you learn very quickly how 
important good management of a fleet is, and what--and I'd like 
to see us be able to have, if possible, is more American flag 
vessels out there, as well.
    There's been little Federal investment in our great 
infrastructure--including ports and rail--even as freight 
traffic is projected to increase nearly 70 percent by 2020. 
What kind of a priority should freight be given as Congress 
considers the next transportation bill? That includes funding, 
of course, as well.
    Mr. Matsuda. Well, it's certainly my view that freight has 
to be a part of any future policy discussions. I can assure you 
that Maritime Administration would work very closely with the 
Committee and yourself to, you know, help develop any kind of 
proposals. We're happy to supply information.
    I can tell you that the American Marine Highway Program, if 
we're serious about relieving congestion in some of our surface 
corridors, we've got to take advantage of some of the natural 
efficiencies that exist by moving goods on the water, and that 
that program ought to, or can, play a role, certainly, in any 
kind of future freight policy.
    Senator Lautenberg. We wonder what we can do to encourage 
jobs in the marine building--shipbuilding, ship materials, 
electronics, et cetera--what we can do to encourage investments 
in that type of thing so that we maintain leadership in the 
field of maritime effectiveness.
    Mr. Huerta, the FAA has undertaken a redesign of the New 
York, New Jersey, Philadelphia region airspace--in our meeting, 
you mentioned that we have several other airports, beside the 
principal ones, like Teterboro, Westchester, Morristown, and 
other airports in the region, along with a significant use by 
the military airspace. So, the major overhaul of fight patterns 
has raised safety concerns from controllers, and as a 
consequence, the noise factor, which I mentioned before, in 
2007, an FAA official dismissed the noise problems and as, and 
I quote here: ``at best, a side issue.'' Do you believe that 
the quality-of-life issues affecting hundreds of thousands of 
people in New Jersey, nearby Pennsylvania, and nearby suburban 
New York and New Jersey should be considered as a part of a 
necessity as we review the redesign process?
    Mr. Huerta. Absolutely. The concerns of communities that 
are affected by aviation are a factor that is something that we 
need to hear and we need to consider as we are making tough 
decisions, in terms of what to do about the airspace in that 
particular region. But, concerns--it's a multifaceted problem, 
and there are a lot of stakeholders, and it's very important 
that the FAA listen to all of them.
    Senator Lautenberg. With that, I would ask if any of you 
have anything else that--if each of you have anything else that 
you'd like to say, because we've taken care of what we have to 
do to make sure that we have an understanding. But, between you 
and the leadership, the Transportation Department's so 
critical. And I didn't see a visitor from Alaska here who came 
by, and we're happy to have Senator Begich with us.
    And, Senator, if you'd like to present your questions, 
we're happy to hear them.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. I will 
be brief.
    Mr. Huerta, you and I had a conversation, and a very good 
one, I believe. And my belief--as a former executive, a mayor, 
my belief is, the President has an opportunity to pick who he 
would like to be part of his team, but his success and failure 
is on your shoulders. So, I wish you the best.
    And so, I just have a couple questions. And first, what I'd 
like to do--is it ``Mahtsooda''? Is that right?
    Mr. Matsuda. Yes, sir.
    Senator Begich. Mr. Matsuda, let me ask, if I can, because 
Mr. Huerta and I had many questions already in a very short 
period, but I feel very confident of some of the response and 
understanding of Alaska's uniqueness in regards to air. But, 
with MARAD, as you know, MARAD has a unique role in Alaska, 
specifically around the large development in Anchorage, which 
is our regional port.
    Our regional port serves 85 percent of the State 
population. It is a fairly significant project. It's one of the 
few projects that MARAD has taken on as a large capital 
investment, which, of course, we're excited about. I was mayor 
when we signed that agreement and moved forward. Now, as U.S. 
Senator, I'm hoping to see this port completed. It's one of 15 
strategic ports in the Nation. From a military standpoint, and 
obviously from a cargo and commodities standpoint, it's very 
important.
    You folks are the lead agency managing it, and I, again, 
don't know how familiar you are with it, but I would love to 
get your thoughts, if you have any, in regards to that project, 
as one of the largest projects that MARAD has undertaken. And 
if you have limited knowledge on it, I would love to have you--
assuming everything goes right and you're sitting where you 
need to be sitting--that you feed back to me your review of it, 
and a very honest assessment in what things we need to be 
improving on, or add to, or make sure that the project 
continues. Do you have any comments, generally, on the project?
    Mr. Matsuda. Generally speaking I'm familiar with it. I'm 
trying to make my way up to Alaska at some point this spring--
--
    Senator Begich. We'll bring you up.
    [Laughter.]
    Senator Begich. You'd like it.
    Mr. Matsuda. I have met with the port director, the former 
Governor----
    Senator Begich. Yes.
    Mr. Matsuda--and we've talked about the challenges that lie 
ahead. I'm very comfortable with the management that's in place 
there to make sure that the project stays on track.
    I would point out, though, that the one area that seems to 
be causing a little bit of concern is the future funding. And 
as you know, MARAD is happy to carry out the project, but we 
don't--we can't provide the actual funding. We----
    Senator Begich. Right.
    Mr. Matsuda. We can use funding from any source--private, 
public, Federal, State, local government--and we're happy to do 
so, but that seems to be one of the biggest challenges as we go 
forward.
    And I believe it really will be a model for how MARAD can 
work and develop ports around the country. There's been 
tremendous progress made there already, and we'd like to 
continue that.
    Senator Begich. Your point on the diversity of the funding 
is one that I want to just add a little emphasis to. That is 
unique. It has private, public--both local bonds, as well as--
or revenue bonds as well as revenue fees, it has State dollars, 
it has Federal dollars from multiple sources. So, it's a very 
complex funding mechanism. But, all ports are complex in their 
own use; it's not just for one type of commodity. So, I 
appreciate you mentioning that.
    And again your review and your comments of how we can 
continue to move that project forward would be important to me 
here and, I know, to Alaska.
    The other piece is, as you look at it--as mayor, one of the 
things we did, was to segregate the port into multiple phases. 
And we did that on purpose, because--my worry was, just what 
you said, that it's so large that we may end up not getting the 
job done. And so, we wanted to make sure we did it in 
components. So, again, as you look at it and review it, 
indicate to us, at least in this office, what you feel is 
anything that we need to improve on in that aspect. I'm a 
believer that everything we do can always be better. But, I do 
believe that the project is a great project and has some great 
support across the Federal system, the State system, and the 
local government.
    So again, thank you for your willingness to, one, come up 
to Alaska. You know, Secretary Locke just came up to Alaska in 
January, and because of that--he came in January--he gets extra 
points for that.
    [Laughter.]
    Senator Begich. So I would just note that. But, we're happy 
to take you, anytime. But, again, thank you very much for your 
willingness to serve the country and serve in this position.
    Michael, if I can ask you just a couple of the points that 
you and I talked about--from FAA in regards to the concerns we 
have in Alaska, that--the general aviation component and how 
different that is than regional, as well as the larger lines, 
that Alaska has some unique challenges. One that we talked 
about, is transporting oxygen to areas, which is life-and-
death, literally. We've had to get waivers to do that, because 
the rules and the regulations are pretty intense. Is that an 
area that--and I'll use that as an example--but your 
commentary, just in your view of how Alaska has some remoteness 
that's very different than most remote areas around the 
country--can you give me just some feedback and thought on 
that, from your perspective?
    Mr. Huerta. Sure. You know, as you point out, the aviation 
system is to Alaska what the highway system is to many other 
States. It is a principal mode of transportation, and it 
introduces a level of complexity that you don't see in other 
parts of the country.
    Yes, we spoke about the oxygen issue when we met, 
yesterday, and the thing that--what I will commit to you is, we 
will certainly look at this carefully, recognizing the unique 
situation that exists there in Alaska and what the alternatives 
are that are truly available, and, at the end of the day, 
making sure that we are maintaining the absolute safety of the 
system, which is, of course, our highest priority.
    But, Alaska presents some unique challenges. You know, it's 
a big State, and there are a lot of parts of the State that the 
only way to get there is by air.
    Senator Begich. Absolutely.
    Let me just finish here, Mr. Chairman, and say that--the 
other thing we talked about, especially as it gets closer and 
closer to springtime here, not only is the issue on 
transporting that product important for life-and-death issues 
of individuals, as we move into the construction season, we 
also have an issue of moving acetylene torches and other types 
of equipment by air to these remote areas where we're building 
facilities that, literally, we're announcing daily here, 
stimulus money to be put into those communities, but if they 
can't get certain equipment there because of these regulations, 
and they--like you said, it's the only way--we can't truck it 
in, we can't boat it in; we can only fly it in. And so, again, 
as you review that, I assume you'll keep an open mind of how 
you look at that component to ensure that we get a timely 
response in regards to construction of these projects that we 
have out there.
    Mr. Huerta. Certainly.
    Senator Begich. Let me end there, Mr. Chairman. Again, we 
had a great conversation, even though it was brief. I know my 
staff--James Feldman--probably grilled you prior to me getting 
there. Staff do a good job on that, and they give me the easy 
job. But I, again, thank both of you for your willingness to 
serve--serve the President, serve this country--and again, I 
wish you both the best in your new positions, as--hoping 
everything goes smoothly--and again, invite both of you to 
Alaska in your own unique new role.
    Thank you very much.
    Mr. Chairman?
    Senator Lautenberg. Thanks very much, Senator Begich.
    No place needs available aircraft like Alaska. I've been 
there and had a chance to see the beauty, but also the terrain 
of Alaska, and we want to make sure that whatever investment's 
going to be made in aviation, whether technology or training 
and so forth, are there.
    And, Mr. Huerta, there's one thing that I would like to ask 
you about before we complete our review here, and that is the 
shortage of qualified--professionally qualified controllers in 
a lot of the airports. One of them that has a shortage--it's, 
frankly, had my interest for some time now--is at Newark 
Liberty Airport, at the control tower. It says to be fully 
complemented, has to have 35 controllers to move the traffic as 
efficiently and as safely as we can. Right now, there are only 
26 certified controllers, and eight trainees manning the tower. 
And I'd like to know if I can get your commitment to fully 
review that. And I'd like a particular look at the Newark 
tower, about certified controllers and what we might do to fill 
the required number of people in there that we need.
    Mr. Huerta. Controller staffing is certainly a significant 
issue, and, in particular, at a significant airport like 
Newark. Yes--you know, I understand that there have been 
questions about the staffing, and I discussed them with your 
staff. And once I am in position over at the FAA, I will 
certainly give you my commitment to take a careful look at that 
and get back to you.
    Senator Lautenberg. We'd ask you to do that.
    With that, I say thanks, to each of you. I feel very 
confident that we have good people to fill these posts. Your 
training and attitude and experience couldn't be better. And I 
commend you both for your willingness to serve, to accept some 
of the abuses that may be heaped on you from the Congress. And 
I speak for both bodies, not just the Senate.
    And say that we're going to close this hearing. Questions 
for the record are due to be submitted to you by 6 p.m. this 
Thursday, and the Committee will ask colleagues--we'll notify 
them--to have their responses to their questions by 6 p.m. on 
February 2.
    And with that, I would close the meeting, and with the 
belief that quick processing of your confirmation can be 
accomplished here and that you'll be able to not be concerned 
about this, but about the effectiveness of the jobs that you're 
doing. And we know that you'll do them well.
    And, with that, this hearing is concluded.
    [Whereupon, at 3:33 p.m., the hearing was adjourned.]
                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Tom Udall to 
                       Hon. Michael Peter Huerta
    Question 1. Mr. Huerta, news reports this month discuss at least 3 
flights that were diverted due to ``disruptive'' or unruly passengers. 
Just last Friday, a flight from Washington Dulles to Las Vegas was 
diverted when an unruly passenger, who may have been intoxicated, tried 
to open an emergency exit while in flight.
    In response to a notorious 2006 drunk driving incident following a 
flight into Albuquerque, I crafted legislation (S. 743) to require 
flight attendants and gate agents to receive training on recognizing 
and dealing with intoxicated or disruptive passengers. I am pleased 
that this Committee already included my bill as part of legislation to 
reauthorize the FAA. Do you agree that flight attendants and gate 
agents should receive such training to help ensure passenger safety in 
the air and also protect public safety on the ground?
    Answer. I agree with the important goals of S. 743, and it is my 
understanding that the FAA has a rulemaking underway to address this 
area. The FAA established an Aviation Rulemaking Advisory Committee 
(ARC) consisting of government, industry and labor unions in order to 
update all of our crewmember training requirements

    Question 2. Mr. Huerta, small aerospace companies in my state have 
been frustrated by long delays in getting FAA certifications for new 
products--apparently due to inadequate staffing to handle such 
requests. This situation has already improved under the new FAA 
Administrator Randy Babbitt, who assured me that providing timely FAA 
certifications is a priority.
    With manufacturers making new products to take advantage of NextGen 
implementation, I hope that you will make sure that FAA devotes 
adequate attention and resources to ensure that companies receive 
timely responses to their certification requests. As FAA Deputy 
Administrator, will you work to ensure that the agency devotes adequate 
resources to avoid unnecessary delays for FAA certifications?
    Answer. I am sensitive to the impact that delay can have on the 
U.S. aerospace industry's ability to obtain FAA certification. I will 
commit to review the current situation and make the most effective use 
of our resources to reduce delays in the future.

    Question 3. The FAA currently classifies the Albuquerque air 
traffic control center (ZAB) as a Level 10 facility, which may no 
longer represent the volume and complexity of air traffic it now 
handles. As you know, the facility's classification directly affects 
air traffic controllers' compensation.
    My understanding is that no process is in place to bring the FAA 
and air traffic controllers to a mutual agreement. When I, along with 
the other members of New Mexico's Congressional delegation, raised 
concerns about the Albuquerque Center's classification, Administrator 
Babbitt responded that the matter is now subject to litigation. I find 
this unfortunate and would prefer to see the FAA and controller's union 
work together to resolve this issue fairly in a manner that promotes 
safety.
    Mr. Huerta, I hope that under your leadership, the FAA will 
reconsider the approach it has taken to the dispute over the 
Albuquerque Center's classification and avoid similar situations in the 
future. Will you agree to examine this matter and seek a fair process 
to resolve concerns about the classification level of the Albuquerque 
Center?
    Answer. Yes, in fact, I understand that this issue is under review 
by the FAA and the National Air Traffic Controllers Association 
(NATCA).
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                       Hon. Michael Peter Huerta
    Question 1. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing with your respective 
agencies?
    Answer. I strongly believe that agency staff should work closely 
with Congress in providing technical and legal expertise to assist in 
developing and reviewing legislation. The Committee can be assured that 
I will maintain a cooperative working relationship with majority and 
minority members of the Committee.

    Question 2. As I mentioned in my statement, I am increasingly 
concerned with how the FAA is moving forward on NextGen implementation. 
What is your vision and what are your goals for the next 2-3 years on 
accelerating NextGen effectively and efficiently that will provide 
operational benefits to the system and its users?
    Answer. NextGen remains a top priority for the Administration, the 
Department of Transportation (DOT) and the Federal Aviation 
Administration (FAA) and as such, I view it as one of my priorities to 
ensure we are moving forward on NextGen implementation in order to 
realize greater benefits sooner.
    That said, considerable progress is already being made toward 
making NextGen a reality. The FAA met 94 percent of its high-priority 
NextGen goals in FY09. For example, the new satellite-based aircraft 
surveillance tracking system, Automatic Dependant Surveillance--
Broadcast (ADS-B), was made operational in the Gulf of Mexico where 
surveillance has never before been possible. Over the next 2-3 years, 
the FAA will continue to build out the ADS-B infrastructure on 
schedule.

    Question 3. I think that most, if not all, members of this 
committee believe that FAA reauthorization should be a top priority 
during this session of Congress. But we will not be able to enact a 
bill unless the Administration steps up and says the bill's passage is 
important and helps make it happen. To what extent do you believe we 
can count on the Administration to make FAA reauthorization a priority 
for Congressional action?
    Answer. If confirmed, I would make the FAA reauthorization a top 
priority. I understand that Administrator Babbitt believes that H.R. 
915 and S. 1451 provide a basis for discussions in moving forward. If 
confirmed, I look forward to working with Congress to secure 
reauthorization.

    Question 4. As you probably have come to realize from your 
briefings in preparation for today's hearing, many of the same type of 
challenges that faced the department when you served there in the 1990s 
remain today. What did you learn in your previous work at DOT that you 
hope to now rely on to help you in your role as FAA Deputy 
Administrator?
    Answer. I have been impressed with the dedication, experience and 
caliber of the professional staff I have met at the FAA and I look 
forward to working with them if confirmed. As is often the case in 
large organizations, however, the FAA does face many challenges.
    In my previous tenure at DOT, I had responsibilities which required 
agencies and offices to work cooperatively in ways that crossed 
organizational lines. This required everyone to think outside of 
business as usual and to focus less on process and more on solving 
problems.
    During my preparatory briefings, a concern I heard throughout the 
FAA was that the challenges facing the agency in the future will 
require new thinking and new ways of doing business. The professional 
staff is concerned that the agency needs to break through bureaucratic 
``stovepipes'' to maximize its effectiveness. This will require the 
support and active participation of the Administrator and Deputy 
Administrator. I know that Administrator Babbitt shares my commitment 
to ensuring that the FAA adapts to the new challenges it faces in the 
future.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                       Hon. Michael Peter Huerta
    Question. This Committee has paid a good amount of attention over 
the past year both with respect to the FAA Reauthorization bill and 
hearings having to do with Aviation Safety. I would appreciate knowing 
your views on the current regulations regarding pilot duty time and how 
the practice of pilots commuting to their duty station can have 
significant consequences when it comes to the safety of passengers. I 
realize that this is currently the responsibility for pilots to self-
enforce when they should not fly, however as was witnessed in the 
Colgan crash in Buffalo roughly one year ago, both pilots were 
commuting from long distances--the pilot commuted from Tampa and the 
copilot from Seattle.
    Answer. Pilots bear an important responsibility to ensure the 
safety of their passengers and they, like any professional in a safety 
sensitive position, have a responsibility to show up for work fit for 
duty, without being fatigued or impaired. Long commutes are of concern 
if they affect fitness for duty, but this is only one of several 
factors that might affect performance. I have not had an opportunity 
yet to fully study the scope of regulations that relate to ensuring 
fitness for duty for pilots. If confirmed, I look forward to working 
with the Committee and Congress to ensure that safety is always the 
overriding factor in any consideration of regulations.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Sam Brownback to 
                       Hon. Michael Peter Huerta
    Question 1. We have now had eight extensions of the programs of the 
FAA. I'm disappointed that the Obama Administration has not been more 
aggressive in working to secure passage of the FAA reauthorization 
bills now pending before Congress. Do you plan to take a leadership 
role to ensure the Administration advocates for quick passage of an FAA 
reauthorization bill pending before the Congress and to convey the 
impact of this delay on safety, job creation, and efficiency benefits 
of the reauthorization bill?
    Answer. If confirmed, I would make the FAA reauthorization a top 
priority. I understand that Administrator Babbitt believes that H.R. 
915 and S. 1451 provide a basis for discussions in moving forward. If 
confirmed, I look forward to working with Congress to secure 
reauthorization.

    Question 2. In 2008, the United States signed the Bilateral 
Aviation Safety Agreement (BASA) with the European Union (EU) which 
calls for mutual cooperation on aviation safety issues and reciprocal 
oversight for the certification of aircraft and repair stations. This 
agreement was signed after years of assessments regarding the aviation 
safety requirements and capabilities of the aviation authorities in 
Europe and the effectiveness and proven performance of individual 
certification and safety agreements that the U.S. currently has in 
place with several EU nations including the United Kingdom, France, 
Ireland, and Germany.
    As you know, the BASA is an international agreement that does not 
have to be ratified by the U.S. Senate. After it was signed, 
implementation of the BASA was initially delayed over a dispute 
regarding the fees and charges U.S. manufacturers would have to pay 
E.U. regulators. However, it is my understanding U.S. industry is 
sufficiently satisfied with the progress made on fees and charges and 
that this issue is no longer holding up implementation of the BASA; 
rather its implementation is necessary to address the fees and charges 
issue. Given that the U.S. signed the BASA, and that the fees and 
charges issue is being resolved, will the Administration move forward 
with the implementation of the BASA?
    See response below.

    Question 3. If not, given that the FAA has made the determination 
that EASA and the EU member safety authorities have the capability to 
perform this oversight on FAA's behalf, what is the rationale for this 
delay in implementing the agreement?
    See response below.

    Question 4. Although the BASA has not yet been implemented, the 
E.U. has allowed more than 1,100 U.S. based repair station operators to 
repair E.U. registered aircraft and parts as long as those repair 
stations hold a FAA part 145 repair certificate. These U.S. stations 
support more than 130,000 jobs and derive a considerable amount of 
business from the E.U. market. If the BASA is not implemented, the 
majority of these U.S. repair stations will lose the ability to work on 
E.U. registered aircraft, potentially jeopardizing thousands of jobs. 
Are you aware of the negative consequences to U.S. industry and 
American jobs if the BASA is not implemented?
    See response below.

    Question 5. Do you believe that the FAA is aware of the negative 
consequences to U.S. industry and American jobs if the BASA is not 
implemented?
    See response below.

    Question 6. Will you commit to me to use your position as Deputy 
Administrator to push the FAA to implement the BASA?
    Answer. Thank you for your questions on the BASA agreement FAA 
entered into with the European Union (EU) in 2008. I am well aware of 
the safety enhancements BASA is intended to support, and I understand 
that the FAA and the EU negotiated in good faith to reach an agreement 
that met our mutual goals. I also understand that there are several 
challenges to the implementation of BASA. Among those challenges are 
legislative provisions in the pending FAA reauthorization bills being 
considered by Congress. If confirmed, I will work with the Committee 
and Congress to address outstanding issues and work toward 
implementation.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            David T. Matsuda
    Question 1. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing with your respective 
agencies?
    Answer. Absolutely. I look forward to a continuing cooperative 
relationship with Congress.

    Question 2. What will be your top priority as Administrator?
    Answer. If confirmed, my top priority as Administrator will be to 
ensure our Nation has a merchant marine sufficient to meet our sealift 
needs . To this end, we will develop policies that will enable the 
marine transportation industry to become a growing source of gainful 
employment for Americans, as it adapts to our future needs; we will 
seek to improve commerce by developing more efficient ways to move 
freight; we will continue to ensure that our sealift capability in 
times of national emergency or war is fully functional and ready, and 
we will continue to lead the Nation in preparing a new generation of 
mariners.

    Question 3. Because of the escalation of piracy off the Horn of 
Africa, there is a trend for vessel owners to place private security 
teams onboard vessels. What is MARAD's role in ensuring a standard of 
training for these security teams?
    Answer. United States Coast Guard provided minimum guidelines for 
contracted security services (PSA 5-09) along with related piracy 
guidance through a series of Port Security Advisories available on the 
USCG Homeport website and the MARAD website.
    MARAD plays a key role in the training of merchant mariners through 
the development of International Maritime Organization (IMO) maritime 
security courses and workforce development. Working with the U.S. Coast 
Guard and IMO, Vessel Security Officer, Company Security Officer, and 
Facility Security Officer anti-piracy training courses were developed 
by the United States Merchant Marine Academy. MARAD continues to 
certify maritime security training providers who meet the criteria 
established by the U.S. Coast Guard. To date, more than 40 training 
providers have been certified across the country. Efforts are also 
being made to include anti-piracy and security training in the academic 
programs at USMMA and the state maritime academies and to augment this 
training at the maritime union schools.
    MARAD strongly supported the Military Sealift Command's proposal to 
create and implement ``Anti-Piracy Assistance Teams'' (APAT) for 
commercial vessels. These teams consist of personnel from the Naval 
Criminal Investigative Service and MARAD. On a voluntary basis, these 
teams visit U.S.-flag vessels and offer recommendations on how to 
improve a vessel's physical defenses against piracy. The teams also 
review security tactics, techniques and procedures and make appropriate 
recommendations. To date, seventeen APAT vessel assessments and 
recommendations have been completed. MARAD expects that this process 
may be embraced by the international community for similar 
implementation.

    Question 4. Should there be a standard rule of engagement and force 
policy?
    Answer. Ultimately, it is the law of the flag state that governs 
the use of force. The United States Coast Guard has issued Port 
Security Advisory 3-09, which provides guidance on self-defense of 
others by U.S.-flagged commercial vessels operating in high-risk 
waters.

    Question 5. What can MARAD do in partnership with the Navy and the 
Coast Guard to reduce the threat of piracy?
    Answer. If confirmed I look forward to further collaboration with 
the Navy and Coast Guard to combat piracy. MARAD already has efforts 
underway. As part of the Maritime Administration action plan for 
addressing piracy off the Horn of Africa, MARAD provides operational 
advice to U.S.-flag owners and operators, including counter-piracy 
measures and awareness on a regular basis through MARAD Advisories, 
through a comprehensive and frequently updated website, and through 
MARAD's electronic ``MARVIEW'' system which is available to registered 
users. The information is intended to assist ship owners, operators, 
and other maritime industry representatives to be prepared to prevent 
seajackings. Internationally, MARAD will continue efforts as the USG 
co-chair, along with the USCG, for working group three (WG3) of the 
U.N.-sponsored Contact Group on Piracy off the Coast of Somalia 
(CGPCS). WG3 focuses on industry self-awareness and other means of 
utilizing best practices in countering piracy. The CGPCS completed its 
5th plenary on January 28, 2010, at the United Nations in New York. 
This is an international issue with a shared responsibility of both 
industry and the military and over 45 flag-states are represented in 
this Contact Group.
    The threat of piracy will continue, but the risk of piracy may be 
reduced by encouraging the use of best practices aboard commercial 
vessels. Additionally, the ability to share information between Navies, 
Coast Guards, and the commercial sector to avoid potential pirate 
attacks continues to be improved. Air assets are particularly helpful 
in the West Indian Ocean to provide situational awareness to commercial 
vessels. The U.S. Office of Naval Intelligence, United Kingdom Maritime 
Trade Office, Maritime Security Center-Horn of Africa, and NATO 
Shipping Center have all been instrumental in sharing pertinent 
information with ship owners and operators.

    Question 6. What changes, if any, would you recommend for 
curriculum at the U.S. Merchant Marine Academy to ensure our Merchant 
Marine Officers are properly trained and ready to lead vessels and 
crews safely out of harm's way with respect to piracy?
    Answer. Efforts are currently underway to develop anti-piracy 
training courses at the U.S. Merchant Marine Academy. If confirmed, I 
will direct the Superintendent to continue to develop and teach such 
state-of-the-art maritime courses.

    Question 7. The expansion of the Panama Canal will allow for a new 
generation of massive cargo ships to enter U.S. ports, including ports 
in my home state of Texas. What can the Maritime Administration do to 
ensure our ports are prepared for these vessels?
    Answer. I want to let you know that recently I visited the Port of 
Houston and had very instructive meetings with port officials. I 
believe that the expansion of the Panama Canal and the trend toward the 
utilization of larger cargo ships will clearly affect our trading 
patterns and supply chain. A new post-Panamax all-water route to the 
East and Gulf Coasts could open markets from the Mississippi River to 
as far west as Denver, Colorado to an entirely new supply chain. With 
the potential for new Arctic shipping lanes and increased utilization 
of the Suez Canal, we are facing a new freight delivery market. To best 
realize the efficiencies of this new market, I understand that the 
Federal Government must play an active role. Specifically, MARAD could 
certainly help coordinate port access and capacity issues, as well as 
the intermodal connectors that feed these facilities. Failure to take 
advantage of these potential efficiencies, could add costs for U.S. 
consumers and exporters, and negatively impact the competitiveness of 
our transportation industries.
    Currently, there are few studies that actually analyze these 
factors--and historical data does not apply in this situation. MARAD 
will commission a study to fully explore the impact of a newer, wider, 
and more efficient Panama Canal on our national freight transportation 
system. The outcome of this study will assist in the shaping of 
national policies, as MARAD works to address the future needs of our 
marine transportation system.
    MARAD is also moving forward on port improvement projects. MARAD is 
helping several U.S. ports modernize and numerous ports have requested 
our assistance in their development planning and coordination to meet 
their capacity and modernization demands. Additionally, MARAD is 
implementing a Marine Highway program to help relieve surface 
congestion and move freight by water in a more energy-efficient manner.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            David T. Matsuda
    Question 1. Agricultural production is a key component of South 
Dakota's economy. What can MARAD do to reduce transportation costs for 
agricultural commodities and make this industry more competitive?
    Answer. There is growing interest in short sea shipping in the 
agricultural community, as it offers an economical and environmental 
alternative to land transportation. Currently, the bulk of certain 
products, like grain, are moved by truck from the field to a terminal 
and then by truck or rail to an export position. North America's 
``marine highways'' are one way of transporting these commodities for 
export more efficiently and potentially less costly than traditional 
land-based movement. These corridors exist where waterways or coasts 
allow for marine movement of goods as an alternative to existing 
surface corridors. If implemented correctly, these opportunities can 
lead to reduced transportation costs for shippers of agricultural 
products.
    I am also aware that in addition to commercial agricultural sales, 
South Dakota is a major supplier of agricultural products for the 
Government's humanitarian food aid donations. Food aid transportation 
costs could potentially be reduced by an increased utilization of 
commercial terms and practices in procurements. Use of long term 
purchase and service contracts could help to smooth the flow of cargoes 
over the entire year thereby reducing congestion, a reduction in 
commodity purchase costs and transportation rates by not buying at the 
height of markets. Commercial agricultural transportation costs can 
also be reduced by improving intermodal and port connections and 
expanding the use of marine highways where possible. Niche markets for 
specialized grains can be enhanced by increasing the use of 
containerization with rapid movements, particularly to Asia. MARAD 
looks forward to assisting shippers and shipper agencies in these 
areas.

    Question 2. The Ready Reserve Force plays an important role in 
supplying and supporting our troops deployed overseas. Does the current 
fleet have the necessary resources to meet the needs of our Armed 
Forces?
    Answer. The Department of Defense will soon finish the Mobility 
Capability Requirements Study (MCRS), which provides guidance on the 
future requirements for the Ready Reserve Force (RRF). The draft 
document basically states that all the current capability in the RRF 
will be needed out through the 2016 timeframe. The concern being 
addressed in anticipation of this requirement is the recapitalization 
of the existing 49 RRF vessels.
    The targeted service life of RRF ships was determined to be 50 
years. This means that the first ship will reach the end of its useful 
life next Fiscal Year. Plans are in place to extend beyond 50 years in 
limited cases and funding needs have been identified to ensure the 
remaining fleet reaches the 50-year life. MARAD has identified the 
additional funds needed starting in 2012 to ensure the 50-year life.
    Vessel replacement or recapitalization is focused on the first 
roll-on-roll-off vessel reaching 50-years in 2017 and 23 more reaching 
50-years by 2023. MARAD intends to propose three methods of replacing 
vessels.

        1. New-build in U.S.: MARAD's predecessors have a long history 
        of successful ship building programs, including LIBERTY ships, 
        VICTORY ships, and the Mariner class program. We are 
        considering proposing that MARAD's expertise be relied upon to 
        design and build ships that will function well for rapid-surge 
        military support and introduce a new type of vessel that will 
        leverage the ability of U.S. companies to venture into new 
        services such as coastal Marine highways initiative and maybe 
        foreign trade. The new vessel will be competitively built in 
        smaller U.S. ship yards for greater price competition and be 
        highly automated to take advantage of U.S. technological 
        strengths.

        2. Substantially Extend Service Life: It is conceivable to 
        extend the current life beyond 50 and even 60 years. RRF ships 
        do not operate annually like their commercial counterparts, so 
        the lack of wear-and-tear supports a longer service life.

        3. Foreign Purchase: In the early 1990s, MARAD purchased 14 
        vessels that are currently among the main assets in the RRF. At 
        that time, purchasing foreign built vessels was allowed. 
        Purchasing foreign built ships is now prohibited by statute, 
        however, the current economic downturn has created a very 
        favorable buyer's market for ships. The U.S.-built inventory of 
        ships does not include the types required that might be 
        available for purchase.

    The MCRS also identifies a substantial need for additional ``handy-
sized'' product tankers in support of military operations. Analysis is 
continuing to determine the portion of this requirement that can be 
provided by commercially available vessels. It is expected that this 
will show a strong reliance on foreign built, owned, and operated 
vessels. Discussions with military planners have indicated that less 
risky assets are needed more quickly than commercially available and 
that the RRF can meet a substantial part of the requirement at less 
expense.
    Another mission that is not identified in the MCRS is support of 
disaster relief efforts. The Department of Defense is called upon 
regularly to provide relief and recovery services during national and 
international emergencies. Recently, the Nation has called upon MARAD's 
ships to help provide this service as shown in New Orleans after 
Hurricane Katrina's devastation, in Galveston after Hurricane Ike's 
devastation, and in Haiti after the earthquake.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                            David T. Matsuda
    Question 1. Congress recently provided MARAD additional funding for 
Title XI shipbuilding loan guarantees and has fully funded the 
program's administrative costs. Several commercial shipbuilding 
projects that would employ thousands of American workers have applied 
for such guarantees, but the agency has been slow to process them. How 
do you intend to improve the MARAD's capability to expedite approval of 
loan guarantees for economically sound projects that will help provide 
much-needed jobs for Americans this year?
    Answer. I agree that expedited approval of loan guarantees can help 
put Americans to work in shipyards sooner. Shipowners and shipyards 
applying for Title XI loan guarantees must meet the requirements for 
obtaining such loan guarantees. They must meet certain financial 
requirements with respect to working capital and net worth, both of 
which are based on such factors as the amount of the guaranteed 
obligation, financial strength, intended employment of vessels or 
technology, and credit worthiness of the applicant. All guarantees 
under the program must also be determined to be economically sound. 
While these requirements are necessary, and by their very nature 
extensive and complex, MARAD can work closely with the applicants to 
ensure that the process advances as quickly as possible. In order to 
facilitate MARAD's capability to expedite approval of loan guarantees, 
and if confirmed, I will be seeking additional personnel for this 
purpose.

    Question 2. I want to voice my support for ``Section 2'' 
requirements for contracts related to the National Defense Ready 
Reserve Fleet. I believe requiring companies that operate and maintain 
this fleet to be owned by United States citizens is important for 
domestic small businesses, for our industrial base, and for better 
maintaining national security. Will you work to maintain this 
citizenship requirement for the operation and maintenance of the Ready 
Reserve Fleet?
    Answer. I fully support the existing regulation requiring so called 
``Section 2 U.S. Citizenship'' for RRF ship manager contracts. Further, 
I believe any decision to pursue a change to such a regulation must 
comply with Federal laws, and should be done in a transparent and open 
manner.

    Question 3. At your hearing, you stated that you will work with all 
stakeholders with transparency in decisionmaking. I thank you for that 
commitment.
    One area that I believe needs more transparency is MARAD's Ship 
Disposal Program. For example, MARAD has not published the names of the 
companies in the pre-qualified bidding pool for this program nor the 
amounts of the sales bids it has received on vessels since November 
2008. Also, a number of contract modifications with foreign companies 
for major scrapping work at significant taxpayer expense have not been 
published. There are additional concerns that some companies are being 
allowed to take U.S.-flagged vessels and reflag them for scrapping in 
other countries, possibly evading laws against toxic exports and 
undermining our domestic industry. Additionally, I have been told that 
a number of Freedom of Information Requests filed on these and other 
subjects have not been answered by the agency. What will you do to 
address these problems and improve transparency in the Ship Disposal 
Program?
    Answer. While I understand that certain information related to 
legal proceedings and procurement actions cannot be released to the 
public because of its potential to affect competition between private 
parties, it is my intention to ensure that all requests made under the 
Freedom of Information Act be responded to in accordance with the FOIA, 
and as promptly as possible.
    Responses to the four specific questions are as follows:

        a. ``For example, MARAD has not published the names of the 
        companies in the pre-qualified bidding pool for this program 
        nor the amounts of the sales bids it has received on vessels 
        since November 2008.''

        I understand that the list of qualified ship recycling 
        companies is dynamic and subject to change; however, the list--
        which is public information--is made available upon routine 
        telephonic or written request and through requests made under 
        the Freedom of Information Act (FOIA). Providing the list upon 
        request also complies with the requirements of the Federal 
        Acquisition Regulations (FAR).

        Sales contracts along with ship recycling service contracts are 
        posted on the awards section of MARAD's Office of Acquisition 
        website, which is accessible to the public over the Internet. 
        Those postings include the value of the awarded contracts. 
        MARAD uses a simplified acquisition process for commercial 
        services for the disposal of non-retention ships, as authorized 
        in FAR Part 13.5. This process provides for a competitive 
        process to obtain ship recycling price quotations, which are 
        then evaluated using the published criteria of price, schedule/
        capacity and past performance to determine the best value to 
        the Government. MARAD also added the capability to conduct 
        vessel sales using this process. While sales are not covered 
        under the FAR, the sales contracts incorporate FAR contract 
        principles and sales quotes are evaluated using the same 
        criteria as the fee-for-service quotes. Only the final awarded 
        contracts are publicly posted on the MARAD website per the FAR.

        b. ``Also, a number of contract modifications with foreign 
        companies for major scrapping work at significant taxpayer 
        expense have not been published.''

        MARAD has only awarded one contract to a single foreign company 
        for the recycling of six (6) non-retention ships. I understand 
        that through an administrative oversight, modifications 18 and 
        19 to that contract were inadvertently not loaded to MARAD's 
        public Virtual Office of Acquisition website, which posts all 
        contracts and modifications for 5 years. Modifications through 
        20 have previously been posted. Modifications 18 and 19 were 
        uploaded Jan 29, 2010.

        c. ``There are additional concerns that some companies are 
        being allowed to take U.S.-flagged vessels and reflag them for 
        scrapping in other countries, possibly evading laws against 
        toxic exports and undermining our domestic industry.''

        In response to these concerns, the Maritime Administration has 
        initiated a number of actions to ensure that all vessels we 
        approve for re-flagging are reviewed by EPA for environmental 
        compliance. Before MARAD approves any vessel for foreign 
        transfer, the Maritime Administration notifies EPA of this 
        transfer request and will not approve the request unless EPA 
        notifies MARAD in writing that they have no reason to oppose 
        the transfer. MARAD is in discussions with the EPA regarding 
        ways in which this process can further be strengthened. This 
        issue is an important component of these discussions.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                            David T. Matsuda
    Question. The Port of Anchorage is one of 16 commercial seaports in 
the U.S. designated as a strategic seaport, based on its importance to 
the national defense of this country. The National Oceanic and 
Atmospheric Administration (NOAA) is in the middle of evaluating (under 
the Endangered Species Act) the Port area to be designated as Critical 
Habitat for Cook Inlet beluga whale. The ESA provides an exemption of 
Critical Habitat designations based on national security interests 
(Sec. 4(b)(2)). I'm concerned NOAA lacks sufficient data to make this 
evaluation. If confirmed, could I count on MARAD to work with NOAA to 
fully account for the role the Port of Anchorage plays in the security 
of this country?
    Answer. Absolutely. I am aware that that the critical habitat 
designation in Cook Inlet has the potential to affect Port development 
and operations, as well as military deployments. I also understand that 
the Port of Anchorage receives and distributes 90 percent of all the 
goods coming into Alaska, and that port efficiency may be affected by a 
critical habitat designation. In that regard, MARAD has been working 
with NOAA's National Marine Fisheries Service (NMFS) on issues 
associated with construction and operations at the Port since the 
belugas were listed as an endangered species in 2008. I assure you that 
MARAD will continue to work with NMFS, as well as affected 
stakeholders, including the Military and the Port, on the critical 
habitat designation to both protect the environment and port 
operations.

                                  <all>

</pre></body></html>
